<html>
<title> - TERRORISM AND THE VISA WAIVER PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                 TERRORISM AND THE VISA WAIVER PROGRAM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

    SUBCOMMITTEE ON HEALTH CARE, BENEFITS, AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2015

                               __________

                           Serial No. 114-145

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-881 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                           
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                Sean McLaughlin, Majority Staff Director
      Dimple Shah, Deputy Counsel, National Security Subcommittee
                          William Marx, Clerk
                 David Rapallo, Minority Staff Director
                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California
                                 ------                                

     Subcommittee on Health Care, Benefits and Administrative Rules

                       JIM JORDAN, Ohio, Chairman
TIM WALBERG, Michigan                MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, District of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina, Vice  BRENDAN F. BOYLE, Pennsylvania
    Chair                            JIM COOPER, Tennessee
MARK WALKER, North Carolina          MICHELLE LUJAN GRISHAM, New Mexico
JODY B, HICE, Georgia                Vacancy
EARL L. ``BUDDY'' CARTER, Georgia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2015................................     1

                               WITNESSES

Ms. Kelli Ann Burriesci, Deputy Assistant Secretary, Screening 
  Coordination, Office of Policy, Department of Homeland Security
    Oral Statement...............................................     7
    Written Statement............................................    10
Ms. Janice Kephart, Director, Homeland Security Solutions, 
  Morphotrak LLC
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Brian Michael Jenkins, Senior Advisor and President, Rand 
  Corporation
    Oral Statement...............................................    40
    Written Statement............................................    42
Mr. Ken Gude, Senior Fellow, National Security Team, Center for 
  American Progress
    Oral Statement...............................................    59
    Written Statement............................................    61

                                APPENDIX

March 6, 2015, GAO letter regarding Update on Firearm and 
  Explosives Background Checks Involving Terrorist Watchlist 
  Records, submitted by Ms. Lawrence.............................   116


                 TERRORISM AND THE VISA WAIVER PROGRAM

                              ----------                              


                      Thursday, December 10, 2015

                  House of Representatives,
 Subcommittee on National Security, joint with the 
         Subcommittee on Health Care, Benefits and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:09 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the Subcommittee on National Security] presiding.
    Present: Representatives DeSantis, Jordan, Russell, 
Mulvaney, Mica, Walberg, Hice, Gowdy, Meadows, Walker, Carter, 
Chaffetz, Lynch, Cartwright, Norton, Lawrence, Lieu, Watson 
Coleman, DeSaulnier, Cooper, Lujan Grisham, and Cummings.
    Mr. DeSantis. This Subcommittee on National Security and 
the Subcommittee on Health Care, Benefits, and Administrative 
Rules will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    The United States, our Western allies, and, indeed, the 
civilized world are facing a global jihad that is dedicated to 
the destruction of our way of life. While certain terrorist 
groups, such as ISIS, receive understandable attention, the 
global jihadist movement is not limited to members of ISIS. 
Indeed, the terrorists who massacred 13 Americans in California 
were dedicated to jihad before ISIS even rose to prominence.
    To protect the American people, terrorists cannot be 
allowed to gain access to the United States. To gain entry into 
the United States, citizens of most countries must obtain visas 
issued at overseas embassies and consulates by the State 
Department following an in-person interview with the Department 
of State consular officer. An exception to this rule is the 
Visa Waiver Program. Established in 1986, the program allows 
foreign nationals of 38 countries to enter the United States as 
temporary, non-immigrant visitors for up to 90 days without 
having to obtain a visa or undergo an in-person interview at a 
U.S. consulate.
    The terrorist attacks in Paris on November 13 demonstrated 
that the Visa Waiver Program represents a potential 
vulnerability for our country. Those terrorists killed nearly 
130 people and caused over 350 injuries. At least five of the 
attackers were French nationals, two of whom were living in 
Belgium, and one was a Belgium national. Nationals of both 
France and Belgium are able to enter the United States under 
the Visa Waiver Program.
    Accordingly, at least six of the Paris attackers could have 
attempted to enter this country under the program. The Belgium 
neighborhood of Molenbeek, for example, is notorious for being 
a hotbed of Islamic jihadists. Known as jihad central, 
Molenbeek is a hellhole that is filled with Belgian national 
Islamic radicals who qualify to travel to the U.S. without a 
visa under the Visa Waiver Program.
    And, of course, many Islamic jihadists in places such as 
Syria are actually Western passport holders who could then come 
to this country with those Western passports after fighting 
jihad in Syria and Iraq. This exposes the American people to 
the possibility that these militants, after receiving training 
and undergoing further radicalization in the hotbed of the 
jihad, could exploit the Visa Waiver Program to enter our 
country.
    With this in mind, the U.S. must ensure that all 
appropriate safeguards are in place to ensure that the program 
cannot be exploited. A properly functioning biometric exit 
system is one of those safeguards. Biometric exit and overstay 
reporting was required as part of the Visa Waiver Permanent 
Program Act in 2007. Despite this, the U.S. does not have an 
exit system at our air, sea, and land ports of entry to track 
overstays as required as part of the Visa Waiver Program.
    In 2011, the former Commissioners of the 9/11 Commission 
concluded, quote, ``The Department of Homeland Security 
properly supported by the Congress should complete as quickly 
as possible a biometric entry-exit screening system.'' As 
important as it is to know when foreign nationals arrive, it is 
also important to know when they leave. Full deployment of the 
biometric exit should be a high priority. Such a capability 
would have assisted law enforcement and intelligence officials 
in August and September of 2001 in conducting a search for two 
of the 9/11 hijackers that were in the United States on expired 
visas.
    Instead of a biometric exit system, DHS has moved to 
implement a biographic exit system, despite the fact that 
former DHS Secretary Janet Napolitano told the GAO that she has 
no confidence in the current system. Even if a biometric exit 
system were implemented tomorrow, it is doubtful, though, that 
the administration would take the necessary action against the 
vast majority of visa violators. The Obama administration has 
circumvented duly-enacted immigration laws through memoranda 
and executive action. Under current law, overstaying a visa or 
violating its terms is sufficient to render a foreign national 
deportable. But now, pursuant to the administration's so-called 
priorities, only aliens who are found to have significantly 
abused the visa or Visa Waiver Programs are deportable. All too 
often, however, such offenders are only found after they have 
committed crimes in this country. The administration has taken 
steps to water down the terrorism bars that render aliens 
inadmissible or deportable by broadening the exemption 
authorities and redefining what constitutes material support.
    Finally, although the government may argue that even aliens 
entering under the Visa Waiver Program are subject to some 
level of background check, more stringent checks than the Visa 
Waiver Program applicants are subject to have their 
limitations. For example, they failed to prevent Tashfeen 
Malik, who, along with her husband, Syed Farook, killed 14 
people in San Bernardino, California, last week before she 
entered the United States on a fiance(e) visa in July 2014. And 
this was supposed to be a rigorous examination.
    This is not to say that Congress should attempt to protect 
the American people--this is to say that Congress should 
attempt to protect American people from those who would come 
here to do us harm. In fact, the House has just passed 
legislation to address concerns related to the exploitation of 
both our refugee admission process and the Visa Waiver Program. 
We will continue to review other immigration vulnerabilities 
that impact our security. Today, as the House has passed the 
visa waiver legislation, we assess the mechanisms in place 
within the Visa Waiver Program that protect our national 
security and help identify returning foreign fighters and 
identify further steps that can be made to strengthen the Visa 
Waiver Program.
    I thank our witnesses for their testimony today and look 
forward to examining issues related to the impact of terrorism 
on the Visa Waiver Program and potential improvements to the 
program.
    And, with that, I yield to the ranking member, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I would also like to thank the witnesses for your 
willingness to appear before this committee and help us with 
our work. As recently noted by William McCants of the Brookings 
Institution and author of ``The ISIS Apocalypse,'' the horrific 
terrorist attacks in Paris on November 13 evidenced a marked 
shift in the strategy of the Islamic State, also known as 
Daesh. By perpetrating a series of centrally planned and 
coordinated terrorist attacks against civilian targets in the 
West, the Islamic State has crossed some kind of Rubicon in the 
words of Mr. McCants and definitely shifted in their thinking 
about targeting their enemies.
    This shift in strategy is even more concerning given the 
continued terrorist threat posed by foreign fighters returning 
from Iraq and Syria. According to the bipartisan report on 
foreign fighters released by the House Homeland Security 
Committee in September of this year, approximately 10 percent 
of so-called returnees seek to engage in terrorist activity and 
recruitment upon their return from conflict zones. This 
statistic took form in the United States in 2015 with the 
arrest of several American returnees on terrorist-related 
charges. These dangers are exponentially greater given the 
Islamic State's widespread use of social media as a global 
recruitment and radicalization tool.
    The Islamic State has more than demonstrated its savagery 
and willingness to expand its terrorist activities beyond its 
controlled territories in Iraq and Syria. And it is imperative 
that we continue to work together and take effective steps to 
enhance our national security against the threat of a homegrown 
terrorist attack.
    Of course, just last week, we witnessed the tragic mass 
shooting in San Bernardino, California, the most devastating 
terrorist attack on U.S. soil since September 11 and one that 
the Islamic State has since praised in its daily online 
broadcast. So while we offer our prayers for the victims and 
their families, we also must take reasonable measures promptly 
to prevent this from happening again.
    One area where we do have significant bipartisan agreement 
is the subject of today's hearing, the Visa Waiver Program, 
administered by the Department of Homeland Security in 
consultation with the State Department. Beginning in 1986, back 
in 1986, during the Reagan administration, the Visa Waiver 
Program was allowed--has allowed foreign citizens from 
specified countries to enter the United States for the purpose 
of business or tourism for up to 90 days without a visa. The 
program reflects a security partnership between the U.S. and 38 
participating countries.
    By establishing minimum standards for acceptable travel, 
including machine-readable passport use, information sharing on 
lost or stolen passports via INTERPOL, the Visa Waiver Program 
has also served to promote commerce and tourism in the United 
States. According to the Department of Homeland Security, in 
fiscal year 2014, the U.S. accepted more than 20 million Visa 
Waiver Program travelers, who spent an estimated $84 billion on 
goods and services.
    However, despite the economic benefits and security 
standards that stem from the Visa Waiver Program, its sheer 
size, traveler volume, and the continued threat of terrorist 
activity worldwide demand that we make every effort to 
strengthen that program. As reported by the Government 
Accountability Office in 2012, approximately 364,000 
individuals traveled under the program in 2010 without verified 
approval from the program Electronic System for Travel 
Authorization. I would also note that the attacks on Paris 
involved the participation of several individuals with French 
and Belgian citizenship, and that Belgian federal prosecutors 
have indicated that coordination of the Paris plot may have 
extended to Budapest, Hungary. France, Belgium, and Hungary are 
all Visa Waiver Program countries.
    The Department of Homeland Security has taken steps to 
enhance Visa Waiver Program security since November of 2014. 
Most recently, this month, the Obama administration announced 
that the Department of Homeland Security will modify the 
program's electronic travel authorization database to collect 
applicant information regarding past travel to conflict zones 
or terrorist safe-haven countries.
    However, the administration itself has noted that more 
robust program security measures will require congressional 
authorization and approval. To this end, the House passed H.R. 
158, the Visa Waiver Program Improvement Act, by a 407-to-19 
vote on Tuesday. This bipartisan legislation, which I 
cosponsored, seeks to reform the Visa Waiver Program through 
stringent security and oversight requirements. Among various 
program enhancements, the bill would prohibit individuals who 
have traveled to Iraq, Syria, Iran and other specified nations 
since March 1 of 2011 from entering the U.S., unless they first 
undergo biometric screening and interviews by U.S. officials 
and obtain a regular travel visa. The bill would also require 
the Department of Homeland Security to remove a country from 
the program if it does not fully vet or share information on 
citizens traveling to the U.S. who could pose a threat to 
national security.
    Beginning of April 1, 2016, H.R. 158 would further mandate 
that all passports from Visa Waiver Program countries be 
machine-readable, electronic passports that are fraud-resistant 
and contain comprehensive biographic and biometric information 
as determined by the Department of Homeland Security. We must 
continue to work in a bipartisan manner to ensure that these 
and other program reforms become law.
    Mr. Chairman, I look forward to the further discussion of 
this Visa Waiver Program with our witnesses as we examine any 
additional security measures proposed by Congress and the 
administration to enhance program security.
    I want to thank you. And I yield back the balance of my 
time.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Jordan, the chairman of the 
Health Care, Benefits, and Administrative Rules Subcommittee.
    Mr. Jordan. I thank the chairman. And I would just thank 
you for putting together this hearing today and would yield 
back. I just want to get to the witnesses' testimony and get on 
with the hearing. So thank you so much for this important 
hearing.
    Mr. DeSantis. Well, it is one of many things, I think, 
that, if you look, we have really three facets. One is dealing 
with terrorists overseas who are creating caliphate and have 
territory that they are in charge of. They can recruit. They 
can train. They can obviously cause a lot of damage there.
    The second part is preventing people like that from coming 
into our country. This is just one part of that. I mean, the 
fact that Tashfeen Malik received a visa, she should not have 
been allowed into this country. And we have to figure out a way 
to deal with that.
    And the third, which we will probably be dealing with on 
this committee at some point, is how to deal with people who 
are radicalized here at home.
    With that, I will yield to Mr. Cartwright for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And I also want to thank our witnesses for being here 
today. I think this is an important topic. We ought to engage 
in a bipartisan dry-eyed review of the situation.
    And I want to start by clearing up a few misconceptions 
that some people may have about the Visa Waiver Program. The 
Visa Waiver Program permits citizens of 38 countries in Western 
Europe and other nations to travel in the U.S. without first 
obtaining a visa. But some have described the Visa Waiver 
Program as visa-free travel. And that is not quite correct. For 
example, a German citizen cannot grab their passport, arrive at 
a major airport in Germany, buy a ticket, and hop a flight to 
Washington, D.C. It doesn't work that way. And we have an 
illustration that actually the Heritage Foundation created to 
show the extensive counterterrorism screening that every 
prospective Visa Waiver Program traveler has to undergo before 
successfully entering the U.S. You can see it up on the screen. 
You can see it is a very simple process.
    You can follow along as I talk about it. A perspective Visa 
Waiver Program traveler has to go through a vetting process by 
the Department of Homeland Security. Travelers are required to 
complete an online security screening form prior to departing 
their country. The screening form includes biographic 
information, criminal background information, and any previous 
visa revocations. This information is continuously vetted 
against U.S. law enforcement and intelligence agency watch 
lists to determine if the traveler poses a risk. DHS also 
conducts extensive preflight screenings for air travelers, and 
it includes checking passenger airline reservation data against 
terrorist watch lists. In addition, DHS conducts pre-arrival 
screenings to vet passenger manifest data indicating who is on 
board against, again, the terrorist watch list. Once a Visa 
Waiver Program traveler arrives in the U.S., he or she must 
undergo an additional level of screening in the form of an in-
person inspection at the port of entry by CBP, Customs and 
Border Patrol. The first inspection includes a validation of 
travel and identification documents and the collection of 
biometric data, such as fingerprints and a photograph for 
first-time Visa Waiver Program travelers. Following this 
primary inspection, the VWP traveler must then submit to a 
thorough inspection of their physical self, their bags, their 
documents, and their electronics.
    No VWP traveler can be admitted to the U.S. without 
completing all security checks. And according to DHS, since 
2008, almost 6,000 travelers have been denied travel to the 
U.S. under this program because of national security hits to 
one of the terror watch lists. In addition, nearly 166,000 more 
have been denied traveling here for using lost or stolen 
passports. So, as far as we know, terrorists are always looking 
for new ways to skirt antiterror measures. And that makes 
sense. That is why we have to be ready to respond, to alter 
measure as new threats arise. That is why I commend the 
administration for taking steps to close security gaps that we 
find in the Visa Waiver Program.
    On Sunday night, the President called on us here in 
Congress to provide the legal authority for the administration 
to implement these changes as soon as possible. And just 2 days 
ago, the House voted on and passed a bipartisan bill to tighten 
restrictions and enhance security under this Visa Waiver 
Program.
    Now, in light of the terrorist attacks in Paris and San 
Bernardino, the administration and Congress should evaluate 
what additional measures are needed to tighten security while 
still preserving American values of inclusiveness and 
nondiscrimination. It is crucial we don't make rash policy 
decisions without thinking about the consequences and the 
implications and certainly the prices of our actions.
    I caution my fellow Members of Congress to avoid knee-jerk 
reactions based on fear and focus on a more measured, 
comprehensive approach to national security. That approach 
should include addressing terrorist radicalization and 
recruitment; the Islamic State's operation capacity and 
community resilience; and, an often overlooked issue, 
combatting homegrown terrorist threats posed by our own 
sovereign citizens, militias, and other antigovernment 
terrorists. We also ought to find ways to unite with other 
countries to defeat ISIS.
    Importantly, this approach should include Congress passing 
legislation that will finally close the terrorist gun loophole 
and prevent known or suspected terrorists from purchasing 
firearms or explosives at any gun shop in America. Congress can 
play a key role in defeating terrorist groups like ISIS and 
protecting the American people. And that is why I am happy we 
are having this hearing today.
    And I yield back, Mr. Chairman.
    Mr. DeSantis. Thank you.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We will now recognize our witnesses. I am pleased to 
welcome Ms. Kelli Ann Burriesci, Deputy Assistant Secretary for 
Screening Coordination at the Office of Policy, Department of 
Homeland Security; Ms. Janet Kephart, director of Homeland 
Security Solutions at MorphoTrak, LLC; Mr. Brian Michael 
Jenkins, senior adviser and president of the RAND Corporation; 
and Mr. Ken Gude, senior fellow on the National Security Team 
at the Center for American Progress.
    Welcome all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you would please rise and raise your 
right hand. Do you solemnly swear the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    All right. Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
oral testimony to 5 minutes. Your entire written statement will 
be made part of the record.
    Ms. Burriesci, you are up for 5 minutes.

                       WITNESS STATEMENTS

                STATEMENT OF KELLI ANN BURRIESCI

    Ms. Burriesci. Thank you, Chairman DeSantis, Chairman 
Jordan, Ranking Member Lynch, Ranking Member Cartwright, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify on behalf of DHS on the U.S. Visa Waiver 
Program.
    The Visa Waiver Program permits citizens of 38 countries to 
travel to the United States for business or tourism stays for 
up to 90 days without a visa. That does not mean travelers are 
able to board a plane with no security checks. ``Waiver'' does 
not mean waiving security. There are a host of checks conducted 
as a result of each applicant being required to have an 
approved Electronic System for Travel Authorization, or ESTA. 
In addition, countries are required to meet security standards. 
And they are reviewed every 2 years to ensure these standards 
are maintained. DHS has and will continue to adapt the VWP to 
meet the challenges of the modern threat environment.
    Let me walk through three security pillars that are 
required of VWP countries but not of countries whose citizens 
must obtain visas. First, countries are required to meet 
multiple statutory and policy requirements. These include, 
among others, entering into agreements with the United States 
to share information about known and suspected terrorists, 
reporting to the Stolen and Lost Travel Documents database, and 
issuing new passports. As a result of the information-sharing 
arrangements, VWP countries have provided information on 9,000 
known or suspected terrorists to the United States. And VWP 
countries are responsible for nearly 70 percent of the records 
in INTERPOL's Stolen and Lost Travel Documents database.
    The second pillar is screening of the travelers. All 
travelers coming to the United States are screened, regardless 
of whether they were an ESTA or a visa. ESTA applicants are 
vetted against the same biographic databases as visa travelers. 
This includes DHS holdings, the FBI's Terrorist Screening 
Database, State Department's CLASS system, and INTERPOL 
databases.
    ESTA applications are also vetted by the National 
Counterterrorism Center. This screening occurs before travelers 
depart for the United States. DHS also recurrently vets ESTA 
data on a daily basis, which means that even though an 
applicant has an approved authorization for travel, an ESTA is 
continuously reviewed throughout its validity period for new 
derogatory information. If someone is a national security 
concern, their ESTA application is not approved. Since ESTA's 
inception, CBP has denied over 6,000 ESTA applications on 
national security grounds. And, of course, DHS is vetting all 
travelers before they depart for the United States and upon 
arrival at a port of entry.
    The third security pillar is the statutory requirement to 
conduct an assessment at least every 2 years on each VWP 
country to ensure security standards are maintained. DHS 
conducts 19 VWP reviews annually, each review supplemented by 
an intelligence assessment. Following the conclusion of every 
review, DHS, in consultation with the State Department, 
provides a report to Congress regarding the results and 
designation determination. During our review, which takes 
approximately 6 to 9 months, DHS assesses each country's 
counterterrorism, law enforcement, immigration enforcement, 
passport security, and border management capabilities. We 
collect information from the government of the VWP country, the 
U.S. diplomatic missions in that country, the Department of 
State, Justice, and the intelligence community. Many reviews 
also include thorough inspections of airports, seaports, land 
borders, and passport issuance facilities. No other program 
enables the U.S. Government to conduct such consequential 
assessments of foreign partner security standards and 
operations.
    Those three pillars are important. But we cannot be 
successful if we don't adapt to the evolving threat 
environment. In November 2014, Secretary Johnson introduced new 
data fields on the ESTA application. These new fields have 
enabled CBP and NCTC to identify a large number of applicants 
with potential connections to terrorism whose connections would 
not have otherwise been known. Per the November 30 White House 
announcement, we will make additional improvements to the 
application that will grant us greater insight into prospective 
VWP travelers who have been to Syria, Iraq, other conflict 
zones.
    In August 2015, the Secretary added further security 
measures. These included full implementation of the required 
information sharing arrangements, collection and analysis of 
travel data, vetting against INTERPOL's Stolen and Lost Travel 
Documents database, and making sure all VWP travelers use 
secure e-Passports when traveling to the United States. The e-
Passport measure will be implemented very shortly. CBP is 
already notifying ESTA applicants that they may not be able to 
board a plane to the United States without an e-Passport.
    The recent tragic events in Paris underscore the need for 
the United States and its partners to swiftly implement these 
VWP enhancements. In conclusion, and keeping in mind the VWP 
program requires countries to meet strong security standards, 
vets all VWP travelers against the same databases as a visa and 
on a recurrent basis, and reviews each country to ensure 
standards are maintained, the VWP provides significant security 
benefits to the United States and its citizens.
    I look forward to responding to your questions. And I've 
submitted written testimony for the record. Thank you.
    [Prepared statement of Ms. Burriesci follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. DeSantis. Thank you.
    The chair now recognizes Ms. Kephart for 5 minutes.

                  STATEMENT OF JANICE KEPHART

    Ms. Kephart. Good morning.
    Chairmen DeSantis and Jordan, Ranking Members Lynch and 
Cartwright, as well as esteemed members of this committee, 
thank you for the opportunity to testify on terrorism and the 
Visa Waiver Program.
    I come before you today in my personal capacity as a former 
9/11 Commission border counsel to augment the good work 
conducted by the White House, DHS, and Congress since the 
tragic November 13 terrorist attacks and, before that, the 14 
years since 9/11. Enclosed in my written testimony you will 
find 18 recommendations intended to address the terrorist 
traveler threat from radicalized individuals in Europe who seek 
to abuse the visa-free benefits of the VWP.
    These recommendations include, first, how to secure the 
overall Visa Waiver Program; second, how to improve individual 
vetting of these travelers; and, third, how to further secure 
our ports of entry against terrorists entry.
    To be clear, the benefits of not having to obtain a visa 
before entering the U.S. are beyond convenience. Visa-free 
travel enables the terrorist to avoid biometric screening until 
arrival in the U.S., investigations by ICE HSI visa security 
units, security reviews by counterterrorism intelligence 
officers at the National Counterterrorism Center, and 
interviews conducted by consular officers trained in behavioral 
anomalies.
    But, first, before reviewing these recommendations, let's 
make sure that the effort to revamp the VWP actually matches 
the terrorist threat of VWP travel to America. I think we can 
all agree that the threat evidence is pretty substantial and 
includes outright direct threats from Daesh against the U.S.; 
the ramped-up attacks against civilians we are seeing in Texas 
and now in California; the guidebooks that are in my testimony 
that Daesh itself are putting out, emphasizing faking identity 
and passports to assure border crossing; and reports of Daesh 
seeking to embed in the Syrian refugee populations in Europe.
    Yet perhaps the most obvious evidence of the threat of 
terrorist travel from European countries is that France, the 
U.K., and Germany are all in the top 10 of producing ISIS 
foreign fighters in the world, with numbers now in the 
thousands. And these individuals have direct, legal, visa-free 
access to our shores.
    So what do we do? First, in regards to the VWP program, we 
must require that all VW countries, as you all just passed in 
legislation, replace all their passports with those that hold 
biometric information that can be verified by our border 
personnel. But replacing paper booklet passports with e-
Passports is not quite enough. Our ports of entry must be able 
to read those passports to verify that the bearer of that 
passport is the right one by conducting facial recognition 
between the passport and the person standing in front of them. 
Not only do we not do that for foreign nationals today, but DHS 
has no capability right now to conduct facial recognition. They 
can only match fingerprints because the Office of Biometric 
Identity Management has yet to become fully multimodal in its 
biometric matching capability.
    Another serious issue, on a completely different topic, are 
countries, like Malta and Cyprus, that put up their passports 
for sale with no residency requirement. VWP countries that sell 
citizenship outright to a potential terrorist should be made 
ineligible for the program.
    Moving on to the individual traveler, the online ESTA 
application Kelli Ann has spoken of in-depth does add a layer 
of security by requiring passport and other information from 
the traveler in a timely manner so watch lists can be checked. 
However, the form, as DHS knows well, depends upon the 
applicant's veracity, which is not something that is usually in 
a terrorist's toolbox. Despite the ESTA form's inherent 
vulnerabilities, biographic information remains essential to 
processing. But biometrics do need to be added to the mix. One 
such opportunity for adding biometrics into the vetting of all 
travelers is requiring all VWP countries to establish CBP 
preclearance operations to remain in the program. Preclearance 
authorities would encompass full admission procedures, 
including authenticating the passport is valid; checking to 
make sure the holder of the passport is the passport owner and 
that their name, face, fingerprint, or iris biometrics do not 
match any watch list. Preclearance would also be a win for 
legitimate travelers who can arrive in the U.S. with minimal 
cues and hassle. And the program itself would be stronger, 
individual application processing more secure, and the U.S. 
port of entry processing streamlined.
    One last point I think we cannot overlook. The VWP tourist 
overstay issue remains. The GAO tells us that 43 percent--43 
percent--of VWP tourists make up the overstay population in the 
U.S. Yet, as of 2013, there were over a million unmatched 
records in our biographic arrival/departure system. Who knows 
who amongst this group may be hiding in plain sight on U.S. 
soil because we simply haven't the means to know who is here 
and who is not and who may pose a threat amongst those 
overstays.
    I encourage Congress to continue oversight of the VWP 
program, augment the good work that DHS is doing, improve 
biometric immigration processing, including full biometric exit 
implementation. Thank you. And I look forward to having further 
discussions with you.
    [Prepared statement of Ms. Kephart follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. DeSantis. Thank you.
    The chair now recognizes Mr. Jenkins for 5 minutes.

               STATEMENT OF BRIAN MICHAEL JENKINS

    Mr. Jenkins. Chairman DeSantis, Chairman Jordan, Ranking 
Member Lynch, Ranking Member Cartwright, members of the 
committee, thank you very much for inviting me to testify on 
this important issue. There are two ways a foreign terrorist 
organization can carry out attacks in the United States. One is 
by persuading followers here to carry out attacks on their 
behalf. And certainly both Al Qaeda and more recently ISIL have 
exhorted their supporters here to do that. Both have had 
limited success in persuading some individuals here to carry 
out some attacks, in some cases with lethal consequences as we 
have seen. Their greater success is limited by the lack of 
traction that their ideology is having in the community here 
and by the remarkably effective efforts of domestic 
intelligence in uncovering and thwarting a number of these 
threats.
    The second way is by recruiting operatives abroad and then 
sending them into the United States to carry out attacks. If we 
look at the recent history, we see that the threat has been 
mainly from homegrown terrorists. Of the 134 persons who since 
9/11 have carried out or plotted terrorist attacks here on 
behalf of jihadist ideology, 96 of them were U.S. citizens, 19 
were legal permanent residents. In other words, 86 percent of 
these individuals were radicalized while they were living here. 
Eight more came into the country on various kinds of visas. One 
came in or attempted to come in on the Visa Waiver Program. 
That was Richard Reid, the so-called shoe bomber. Three had 
earlier crossed the Mexican border illegally. The remaining 
seven were asylum seekers, refugees, or others. That is not to 
say that all of those came here with the intent of carrying out 
terrorist attacks.
    Now, the good news is that these numbers are small. There's 
no obvious hole in the fences. Those who entered used several 
paths depending on individual opportunities. The most common 
way was simply ordinary visas. And I do want to underscore here 
that it's not always clear that the visa interview is going to 
be better at picking up some of these people than the system we 
have in place for a visa work waiver.
    While we may, however, draw some comfort from the fact that 
terrorists are not pouring into the country, there's no basis 
for complacency here. The threat is dynamic. Circumstances 
change. Our security must adjust. And looking ahead, there are 
some obvious concerns. The conflicts in Syria and Iraq will 
certainly continue for the foreseeable future. It may take 
years for the campaign currently directed against the so-called 
Islamic State to succeed in scattering it or defeating it. 
Meanwhile, ISIL's ideology continues to exert a very powerful 
pull. The numbers are not precise, but all estimates of the 
number of foreign fighters in Syria keep going up despite the 
bombing campaign. There's also a difference here, I think we're 
beginning to see between those foreign fighters particularly 
from the West who are going to Syria and Iraq and the previous 
cohorts of those who went abroad to join other jihadist fronts 
in the past. This group is younger. It is attracted by ISIL's 
well-advertised violence, certainly not put off by that fact. 
It appears to be a more troubled population in Syria and Iraq. 
Some of these people are going to be participating in 
atrocities. That's going to change them. And while they are 
there, they're going to be subject to a continuing bombing 
campaign, which may strengthen their commitment and desire for 
revenge. So this is certainly going to be a long-term problem.
    Our ability to vet and screen entries into this country 
depends a great deal on intelligence. And, indeed, it depends, 
in part, on our partners' intelligence holdings. And the 
problem here is that the European authorities are currently 
being overwhelmed simply by the numbers of individuals that 
they have to, they have to deal with. Therefore, I think it has 
to be our operative presumption that terrorist operatives, 
including returning foreign fighters, will continue to look for 
ways to penetrate our security and get into the country to 
carry out attacks, as well as recruit others already here to 
carry out attacks on their behalf. I look forward to your 
questions.
    [Prepared statement of Mr. Jenkins follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Mr. DeSantis. Thank you.
    Mr. Gude, for 5 minutes, you're recognized.

                     STATEMENT OF KEN GUDE

    Mr. Gude. Thank you, Chairman DeSantis, Chairman Jordan, 
Ranking Member Lynch, and Ranking Member Cartwright, and all 
the members of the committee. I appreciate the opportunity to 
testify before you today on this critical issue.
    In the wake of the attacks in San Bernardino and also the 
attacks in Paris, it is important that we understand what is 
the best way forward to improve national security programs that 
protect the American people. In my view, that is to manage and 
minimize the risk rather than an attempt to completely 
eliminate the risk simply because we cannot eliminate a risk in 
the open society in which we live.
    What we should be working on is working together to 
reassure the American people that the steps that we are taking 
to protect them are adequate to manage that risk. And in light 
of that, I want to say about the Visa Waiver Program reforms 
that were passed earlier this week that, while I don't agree 
with every aspect of that bill, I do think it was in keeping 
with the working-together aspect and identifying genuine 
vulnerabilities and trying to improve those security programs 
related to those vulnerabilities without shutting down access 
to the United States.
    What I think is unacceptable and dangerous in this time is 
to try and exploit the understandable and reasonable fears of 
the American people for political gain and push a jittery 
public towards hatred and prejudice. And I think that not for 
partisan reasons but because it is genuinely dangerous to the 
American people because it plays right into the hands of ISIS.
    Before I get to my specific points about the Visa Waiver 
Program and other aspects of how we can protect the homeland, I 
want to elaborate on why I think it does play into the hands of 
ISIS to engage in rhetoric and actions directed at Muslim 
Americans and Muslims in the United States. ISIS has an 
explicit strategy--they talk about it in English all the time--
to polarize Western societies as part of their effort to create 
a clash of civilizations. Now, their interpretation of a clash 
of civilizations is the West versus Islam, with ISIS 
representing Islam. Now, that is completely erroneous. ISIS 
does not represent Islam. ISIS is not a civilization. We are 
making a mistake to play into that framing of the issue and 
that ideology.
    There can be no justification for joining ISIS. I'm not 
trying to rationalize any decision by anyone that they join 
ISIS. But we have to understand what motivates people to do so. 
And the alienation of Muslim communities in the West is one of 
the aspects that increases the capability of ISIS to recruit 
members into their ranks. Ignorance of that is not strength. 
Ignorance of that is a weakness on the part of our strategy. 
And we must do all that we can to eradicate that from our 
policy and our rhetoric. Now, specifically on the Visa Waiver 
Program, while I think it was important to address these 
vulnerabilities, one aspect that I think is necessary should 
these changes become law is that Congress now has the 
responsibility to fund and resource the consulates in visa 
waiver countries to ensure that they can adequately manage what 
will likely be a much higher level of visa applications than 
they're traditionally used to because if they are visa-waiver 
countries, they probably don't have to deal with this very 
much. And we would not want to create that as a barrier to 
entry into the United States simply from a resource problem.
    Getting to another aspect that was addressed or raised 
briefly by Chairman DeSantis, which is the refugee question, I 
join with Secretary Albright, Secretary Kissinger, many other 
former national security leaders, and I urge the Congress to 
reconsider the plan that would effectively shut down Syrian 
refugees entering the United States. The program is very 
rigorous. It is the most rigorous process to enter the United 
States of any way that you can enter the United States legally. 
I believe that the program adequately manages the risk. And 
should that come up before this Chamber again, I urge you to 
reconsider.
    Lastly, I want to raise a point that Chairman DeSantis 
identified in his testimony, which is that we have a challenge 
for people who are in the United States and radicalized when 
they are here, legally or whether they've always been here. One 
of the things that I find hard to reconcile with the demand for 
the virtual elimination of the risk from Syrian refugees is an 
acceptance and tolerance of risk that individuals who have been 
identified as suspected of being tied to terrorism can freely 
purchase weapons in the United States. I find that--it's just 
hard for me to understand how, on one side, we seek to 
eliminate the risk from Syrian refugees; on the other side, we 
seek to tolerate risk at a very high level of suspected 
terrorists getting their hands on the most dangerous weapons.
    With that, I will conclude. And I look forward to your 
questions. Thank you.
    [Prepared statement of Mr. Gude follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. DeSantis. Thank you. Thank you.
    The chair now recognizes himself for 5 minutes.
    Ms. Kephart, given the recent events in Paris, what 
improvements could be made to the vetting process for visa 
applicants generally in order to protect the security of the 
United States? And what lessons are there to be learned with 
regard to our immigration system from past terrorist attacks?
    Ms. Kephart. I think the visa system itself--do you want 
the visa-free system or the visa system?
    Mr. DeSantis. Both. Because I think that we have to look at 
the visa system in order to evaluate the visa-free system. I 
think there's problems with both.
    Ms. Kephart. Right. So, on page 14 of my written testimony, 
I have a chart there which pulls together the elements that 
visa has today and the visa process has today that the ESTA 
process for visa-free travel does not. There are a number of 
elements there I think in the visa travel that can be brought 
into the visa-free. The biggest one I think--without demeaning 
the value of the ESTA process itself because it does have 
value--is to add the biometric screening to it. I think it's 
very difficult to do that necessarily with the individuals 
within the Visa Waiver Program. You really have to do that in a 
controlled environment, which is why I recommend preclearance 
be a mandated requirement for VWP status.
    So, for visa-free, I think adding the biometric and the 
vetting before they travel to the United States and make that a 
complete vetting process, what you're not going to get with 
that, which visas do have today, is the interview necessarily, 
although you could have secondary inspection available there. 
And you're not going to have that time to do what they do at 
consular offices now, which is, for those that have it, the 
visa security units that do the extra immigration check through 
ICE, HSI, or the National Counterterrorism Center intelligence 
checks. You're not going to have that ability to do an in-
depth, in-your-own-time check.
    The visa process I honestly think has done a really good 
job, the State Department, of bettering itself over the course 
of time. The one thing that has happened is they've peeled back 
a little bit on the interviews. And they made some requirements 
there.
    Mr. DeSantis.They --missed Tashfeen Malik, who had been 
going back and forth----
    Ms. Kephart. Yeah. Yeah.
    Mr. DeSantis. --from Saudi Arabia to Pakistan and had been 
radicalized--now they say--before she came here.
    Let me just ask you this. We passed a bill this week. That 
does not--that bill may be a first step, but that does not 
solve all the problems, correct?
    Ms. Kephart. That's correct.
    Mr. DeSantis. And we talk about some of these other 
countries. But a country like Belgium does not really do a very 
good job at providing the type of information that we would 
expect in order to be sure that the people who are getting 
visa-free travel. So somebody in a place like Molenbeek, they 
can basically, even under this bill, they're still going to be 
able, if they have a passport, to come to the United States. Is 
that your understanding?
    Ms. Kephart. Yes.
    Mr. DeSantis. Ms. Burriesci, senior DHS officials told the 
Government Accountability Office in April of 2013 that the 
Department had not reported overstay rates because it did not 
have sufficient confidence in the quality of the overstay data. 
And so they said that they couldn't reliably report overstay 
estimates in accordance with the statute. The GAO went on to 
link the lack of confidence in overstay data to current 
biographical data system and lack of a biometric system to 
verify the identities of alien travelers. Why did DHS officials 
tell the GAO that it did not have confidence in the biographic 
system in 2013?
    Ms. Burriesci. During that time, we were still working to 
connect some systems, some biographic systems, to exchange data 
between agencies within DHS. And one of the issues, once you 
are enhancing your systems, you can't kind of go back and see 
the data that, you can't unfix what you, what was in the past. 
So we have worked the last several years to improve those data 
exchanges and make sure that data is flowing in order to be 
able to develop accurate numbers moving forward.
    Mr. DeSantis. So you have confidence in it now, unlike 
Secretary Napolitano did not have confidence, you think now, 
standing here today, that the system is good and trustworthy?
    Ms. Burriesci. We have certainly increased confidence since 
that time, absolutely.
    Mr. DeSantis. But that may not be sufficient.
    Let me ask you, Ms. Kephart, to comment on specifically, if 
a terrorist it able to come through the Visa Waiver Program, 
supposed to be here 90 days, but in point of fact if they come 
here and they need a 6-month time period in order to 
orchestrate and conduct an attack, is there really a 
significant risk to them that they are going to be removed from 
this country on the 91st day?
    Ms. Kephart. Not unless they come across criminal law 
enforcement and there's some connection to a terrorist watch 
list, no.
    Mr. DeSantis. Exactly.
    Let me ask Mr. Jenkins and Ms. Burriesci. Is DHS 
currently--well, let me ask Ms. Burriesci this first one--is 
DHS currently monitoring individuals who have recently traveled 
to countries, such as Syria and Iraq, where radicalization or 
training efforts are obviously readily apparent?
    Ms. Burriesci. So if there was continuous travel that had a 
nexus to the United States, we would certainly have that 
information. If there's not a nexus to the United States and, 
say, one of our VWP countries are aware of that travel, they 
are absolutely reporting foreign fighter information to us. 
That's one of the benefits of the VWP program.
    In cases if it's unknown to the VWP country, unknown to the 
United States, there's no nexus; that is a potential that we 
would be unaware of that travel. That's why when individuals 
travel to the United States, we also do have algorithms running 
in the background for the checks that we do conduct to do our 
best to match up what we might term as, like, broken travel 
because it doesn't have that nexus.
    Mr. DeSantis. Let me ask Mr. Gude, one of the statements in 
your report was from a woman who said ISIS wouldn't be here if 
there wasn't Islamophobia. Do you believe that that statement 
is true? In other words, would you subscribe the motivation for 
the World Trade Center bombing in 1993 to a reaction against 
Islamophobia?
    Mr. Gude. No.
    Mr. DeSantis. What about the Khobar Towers in 1996? No, 
correct?
    Mr. Gude. No. But what I would say----
    Mr. DeSantis. The 9/11 attack?
    Mr. Gude. I'm sorry?
    Mr. DeSantis. The 9/11 attack?
    Mr. Gude. No.
    Mr. DeSantis. Right. So these people have an ideology 
independent of anything, our policies or what we do. I mean, do 
you agree with that?
    Mr. Gude. I certainly do. But I would say that simply 
because they have their own motivations, they certainly don't 
need an excuse to attack us. And, again, I'm not trying to 
rationalize any decision to do so. But I think our own 
ignorance about what does motivate them in some way and what 
does alienate populations, particularly in Europe, they have a 
much more serious problems with this in Europe than we do here 
in the United States, but this, if we create a system or we 
create a situation in which Muslims feel like they need to be 
separated from society, that makes it much more easy and makes 
them--some of them--much more susceptible to the kinds of 
sophisticated recruiting techniques that ISIS employs and not--
and we should be making it harder for them, not easier.
    Mr. DeSantis. What strikes me is that some of the people 
who have been very successful terrorists have been educated, 
you know, middle, higher income people that actually had a lot 
of opportunities. And so I'm not saying that we don't need to 
be sensitive to the broader populace. But I think that it's not 
something that is being done necessarily in reaction to our 
policies.
    And you talked about managing the risk of terrorism rather 
than eliminating the risk of terrorism. And you cited the 
refugee--you acknowledge that there is risk with the refugee 
program, given the FBI Director's statements that they cannot 
vet all the people that are coming.
    Mr. Gude. Of course, there's risk. And that's why they 
established the most rigorous screening system.
    Mr. DeSantis. But it's a screening system, as Mr. Jenkins 
points out. Some of the people who have come and have committed 
terrorist acts have come through the refugee program. I think 
the question is, what is your tolerance for risk? I think most 
Americans, if they think that there's a chance, even if you're 
99 percent accurate out of 10,000 people that you're bringing 
over here, and you're talking about 100 people that you'd be 
bringing into the country that would potentially do harm. So I 
think how you deal with the risk, I think that your testimony 
suggests you would have more tolerance than I think most 
Americans would be.
    I'm out of time. Let me recognize Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank all the witnesses. You've already been 
helpful in some respects. I do want to go over our vetting 
process and screening process because there's some statements 
out there that are really in conflict. Some of the witnesses 
have pointed to the weaknesses. Others have pointed to the 
strengths.
    In one of our previous hearings, we had the Department of 
Homeland Security Inspector General John Roth testify both 
before our committee and before Homeland Security. Before the 
Homeland Security Committee in June, he pointed out that, 
despite rigorous processes, that TSA did not identify 73 
individuals with links to terrorism because TSA was not cleared 
to receive all the terrorism databases that other agencies had 
and did not have access to current interagency watch list 
guidance. So the Office of Inspector General did something very 
simple, he asked for the TIDE list, the terrorist, you know, 
terrorist--T-I-D-E.
    Ms. Burriesci. Identities Datamart Environment.
    Mr. Lynch. There you go, Terrorist Identities Datamart 
Environment. It's basically the terrorist watch list. He took 
that list, and then they did a merge with people who were 
working in secure locations at our Nation's airports. So they 
merged the two lists. And there were 73 individuals who were on 
both lists, the TIDE list, and they were working in secure 
locations with credentials, you know, they had those 
credentials around their necks working at secure locations. So 
that makes me worry. That makes me worry that--now, I 
originally thought they were DHS employees--and I was wrong--
because DHS was screening them. But they were actually working 
for contractors within the airport, airlines, or maintenance 
people. But the problem is, you got these people who are on the 
terrorist watch list and they're working in secure areas at the 
airports; scares the hell out of me.
    So now we have this situation going on with the Visa Waiver 
Program. And we're screening them. Now, in fairness, OIG, the 
Office of Inspector General, Mr. Roth said he did not fault TSA 
because they didn't have access to that intel; they weren't 
given those lists. So I'm not going to hold their feet to the 
fire here, because they didn't have the information. But I damn 
well am sure they're going to get it because we can't have that 
happening.
    So, Secretary Burriesci, have we, because of that 
situation, and also DHS said at the time: Okay, we got to 
straighten this out. We're going to take steps. We'll do a deep 
dive on these 73 people, figure out what the indicia of 
terrorist connection is, and take appropriate action.
    And I am assuming that that has happened. I hope that's not 
a leap of faith. Nevertheless, the vetting process, the 
screening, have we got that straightened out so that all the 
bad guys are on the lists that all our people see who are 
screening?
    Ms. Burriesci. I'll start by saying the interagency does 
the very best it can to make sure we have the most solid, 
consolidated terrorist watch list. And I believe the United 
States has the best terrorist watch list. The Terrorist 
Screening Database is the United States Government's 
consolidated terrorist watch list. That is a different database 
than TIDE, the one you mentioned. TSA does screen all airport 
workers, as well as all of its other credentialed populations, 
against the terrorist watch list.
    Mr. Lynch. Okay. Now, just for my own education, was the 
National Counterterrorism Center that did this merge that 
allowed 73 people with secure, you know, credentials in the 
airports that are on the TIDE list, is that list better? Is it 
the serious characters? Is it a--I know one of these lists is 
900,000 people. I think that's the TIDE list, right? So is the 
broader list better? Or is the narrowest list better? What is 
the distinction here?
    Ms. Burriesci. So the terrorist watch list, the Terrorist 
Screening Database, owned and operated by the Terrorist 
Screening Center, holds all of the known and suspected 
terrorists. That's our bad guy list. That's what we're going to 
screen all of our credentialed population----
    Mr. Lynch. So the people at the National Counterterrorism 
Center, they don't have bad guys?
    Ms. Burriesci. The TIDE database, yes, has all the people 
in the Terrorist Screening Database in it, as well as other 
individuals. And I highly recommend you have a closed session 
with NCTC to discuss that because they can go into significant 
detail with you.
    Mr. Lynch. We've had them in. Just so you know, we had them 
in. Just so you know, there are no good guys on that list that 
was given to me. Are you saying that there's good guys on that 
list?
    Ms. Burriesci. On which list? I'm sorry.
    Mr. Lynch. The National Counterterrorism Center's TIDE 
list.
    Ms. Burriesci. I'm saying that there are individuals who 
have been cleared and have no nexus to terrorism. And we make 
sure that we do not----
    Mr. Lynch. While they're on the list or after they've been 
cleared from the list?
    Ms. Burriesci. I highly recommend that you have a in 
detailed session with them because----
    Mr. Lynch. As long as you're not putting a fiction out 
there that we've got good guys on one list that we're using, as 
long as you're not saying that.
    Ms. Burriesci. Sir, we recurrently vet all individuals 
against the Terrorist Screening Database that have access to 
our secure areas of our airports. It's recurrently vetted. TSA 
will know in real time----
    Mr. Lynch. Just to be clear because if the National 
Counterterrorism Center has a list of good guys, then we're in 
serious trouble. I need to drag them in here and say: What are 
you doing? I wish I had them here now because we have----
    Ms. Burriesci. They could go into detail in a closed 
session on anything. I'm sure they would be happy to do that.
    The OIG report wasn't about individuals though. And I did 
want to correct that. It was records. So when TSA did an 
additional scrub, it was less than that.
    Mr. Lynch. It was 69 instead of 73. Are you going to hang 
your reasoning on that argument?
    Ms. Burriesci. Absolutely not.
    Mr. Lynch. Okay. So it's 69 and not 73. I'll give you that.
    Ms. Burriesci. And TSA has access to the TIDE database as 
well. What they're seeking, what the OIG's report was alluding 
to is giving them automated access. So just to clarify, there 
are some nuances.
    Mr. Lynch. Yeah. Well, I bristle at the fact that I got 
pushback that I was wrong because these were contractors that 
were in secured areas with security credentials and they 
weren't DHS employees, like that's somehow vitiates the blame 
here. The idea is that you have people on the terrorist watch 
list working in secure areas at the airports. That's the point 
I'm trying to get at. It's the vetting process, the screening 
process that we are being told over and over again that is so 
robust and impervious. So let's work together here. And let's 
not be in denial. Let's just say: Okay, we got some stuff we 
need to fix. And let's fix it. I'm with you.
    Ms. Burriesci. Sir, I'm always willing to fix anything in 
terms of security.
    Mr. Lynch. All right.
    Ms. Burriesci. DHS' mission is to prevent terrorism. I just 
wanted to clarify----
    Mr. Lynch. All right.
    Ms. Burriesci. --that those individuals were not on the 
terrorist watch list.
    Mr. Lynch. Wait a minute. Well, I need to go back here 
again. They are on the National Counterterrorism Center's list 
of people with connections--let me read what the inspector 
general said again.
    And you missed them. You missed them. You didn't have the 
chance to even review what they were guilty of because you 
completely missed them. So you didn't vet them. That's why 
they're working at the airports.
    Let me just go back to what the inspector general did. He 
pointed out that, despite rigorous processes, TSA did not 
identify 73 individuals with links to terrorism because TSA is 
not cleared to receive all terrorism categories.
    Hello. So you didn't vet them. How do you know they were 
good guys?
    Ms. Burriesci. And all I'm clarifying, sir--I'm not 
disputing what you read in the OIG report. I'm just saying that 
that----
    Mr. Lynch. You are. You are. He just said ``links to 
terrorism,'' and you're saying no.
    Ms. Burriesci. Because NCTC's database is not the terrorist 
watch list. The terrorist watch list----
    Mr. Lynch. I understand the distinction between the two 
lists.
    Ms. Burriesci. So TSA----
    Mr. Lynch. But you didn't have the other list. TSA did not 
have the other list.
    Ms. Burriesci. TSA has access to the list but not in an 
automated fashion----
    Mr. Lynch. This is the problem. Right here, this 
discussion, you and I, this is the problem. This is the 
problem.
    You're saying that because these people have links to 
terrorism but they weren't on that list--they were on another 
list. So, even though they have links to terrorism, you're 
going to let them work in secure areas of the airport, no 
problem. Nothing to see here, let's move along.
    Are you kidding me? That's why we have--look, there is, 
like, 75 percent of the American people who don't believe we 
have a plan, that the administration has a plan to deal with 
this. This is why. This is why. I'm on your side. I'm trying to 
make this safer, and all I'm getting is resistance that they 
weren't on that particular list. Give me a break. Come on.
    Let's work together here just to make the airports safer. 
And if we have a problem, if we have a gap, say, ``We had a 
gap, we are going to fix it,'' rather than doing this silly 
dance that they are not on the list that you go by.
    Ms. Burriesci. Absolutely, sir, I want to work with you. 
And I'm happy to go into detail and----
    Mr. Lynch. All right. I'll yield back.
    Ms. Burriesci. --on all the classified pieces----
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes Mr. Russell for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    We've been struggling with the number of folks that are on 
the terror watch list. As Members of Congress, we're trying to 
determine what that number is and are having to rely on open 
source information.
    So, Secretary Burriesci, could you, even in ballpark terms, 
tell us what is the size of that list?
    Ms. Burriesci. I don't actually have that off the top of my 
head, but I can get back to you.
    Mr. Russell. Can you give us an estimate where we didn't 
have to rely on open press reports? Is it between one and a 
million? I mean, what would be your number?
    Ms. Burriesci. I really just don't even want to speculate 
on a wrong number, but I'm happy to call my----
    Mr. Russell. You can't even speculate on the size of the 
list.
    Ms. Burriesci. --interagency partners and get back to you 
on that.
    Mr. Russell. Ms. Kephart, would you enlighten us, please?
    Ms. Kephart. My information is a few years old. I was about 
to meet----
    Mr. Russell. A few years old. Yeah.
    Ms. Kephart. --with Mr. Healy of the Terrorism Screening 
Center a few years ago where he was able to give me information 
he said I could make public. At that time, I did so, and, at 
that time, there were 10,000 to 20,000 terrorists in the U.S., 
on U.S. soil, that the FBI knew about. That's what I know.
    Mr. Russell. People suspected, that were under suspicion.
    Ms. Kephart. The folks that were on the terrorist screening 
watch list, to have reasonable suspicion that they were indeed 
involved with terrorism, that legal level that is a little bit 
above, in terms of evidence, of the TIDE list, which is just a 
conglomeration of people we think could be involved.
    Mr. Russell. Can this committee get a number? I mean, we 
have people of all----
    Ms. Kephart. That's up to the administration, sir. I'm 
private.
    Mr. Russell. We have the Nation, you know, on every side of 
this issue--407 people on the House floor, I mean, if that's 
not darn near unanimity, I don't know what is in this building, 
that voted for this visa waiver protection because we feel that 
that is where the greater threat lies. We can discuss the other 
aspects. But we can't even get good figures in an open hearing 
that would be, oh, rounded to the nearest 100,000, say.
    Can you give us a number?
    Ms. Burriesci. Sir, I just want to make sure that the 
number is accurate. And I will----
    Mr. Russell. Oh, sure, but we----
    Ms. Burriesci. --make sure the Terrorist Screening Center 
is responsive to that request.
    Mr. Russell. Okay. Thank you. And I guess we'll have to 
rely on our First Amendment and reporters that would dig, 
because, you know, we're just the Oversight and Government 
Reform Committee. What business is it of ours, 
constitutionally, to get these numbers?
    Could you speak to the passports for sale on Malta, 
Secretary Burriesci?
    Ms. Burriesci. I don't have information on that.
    Mr. Russell. Well, you just gave us some of these concerns 
in your testimony today, such as passports that would be for 
sale in Malta and not going through a vetting process, and that 
caught my attention. So I would like you to comment.
    Ms. Burriesci. That was in Ms. Kephart's testimony.
    Mr. Russell. Oh, I'm sorry, Ms. Kephart.
    My apologies, Madam Secretary.
    Ms. Burriesci. That's okay.
    Ms. Kephart. So Malta and Cyprus are the two visa waiver 
countries right now that sell citizenship for a price, with no 
residency requirements and very little vetting. Other 
countries, including ourselves, also make long-term residency 
and passports available based on investment.
    But the countries that absolutely sell it outright with no 
vetting procedures in place, I think, are a little bit 
dangerous. And, of course, Malta and Cyprus have had serious 
financial issues----
    Mr. Russell. But these are among the 38, Cyprus and Malta--
--
    Ms. Kephart. Yes, they are. They're visa waiver countries 
right now.
    Mr. Russell. Okay. Thank you so much.
    And, Mr. Chairman, I just want to address one thing that 
was made in some opening testimonies--or, not testimonies, but 
comments of our committee. As probably the only firearms 
manufacturer in Congress, there's a lot of very inaccurate 
information that's being thrown out there.
    One, if you are a nonresident immigrant alien, you cannot 
purchase a firearm. If you're on any visa waiver, it is 
unlawful, it is against the law to purchase a firearm. And you 
certainly can't walk into any facility and purchase explosives. 
And I would be happy to educate any member on this committee on 
what 18 U.S. Code is on the sale of firearms. We are wasting a 
lot of time and effort on that.
    Mr. Gude, you said that you didn't totally agree with every 
aspect of what 407 Members of Congress voted for this last 
week. I would be curious what you didn't agree with.
    And then you said that we should not be on the hook to fund 
higher standards. Pray tell why other nations should have our 
money when we're trying to protect our shores. If they want a 
visa waiver, why should we pay for that? Don't you think they 
should? I am curious to your logic here, sir. Could you please 
enlighten me?
    Mr. Gude. On the last part, I'm not sure I follow that 
question.
    Mr. Russell. Well, let me reiterate it, with the chairman's 
indulgence. You said that we would have to--these, you know, 
changes in the Visa Waiver Program, that we would have to 
allow, you know, funding for these other countries to handle 
that.
    Mr. Gude. Yeah, our own consulates in those countries. If 
you're in a visa waiver--if you're a consulate in a visa waiver 
country, you probably do not have a large number of staff there 
to process visa applications. So U.S. Government employees in 
U.S. embassies and consulates in visa waiver countries. That 
was the point that I was making.
    Mr. Russell. Well, I think those countries, if they want 
this, that they certainly could assist in the expense of that. 
And----
    Mr. Gude. But excuse me, if I could just--that situation is 
analogous, sir, it's exactly the same to what every U.S. 
embassy and consulate has in a non-visa-waiver country. It 
shouldn't be an additional burden; that we would think that if 
we were going to change the rules about how people in visa 
waiver countries get into the United States, I think it's 
completely reasonable, then, to say that we have to ensure that 
our U.S. Government offices are fully resourced in order to 
handle that change.
    Mr. Russell. Well, sure. And when you look at China, who is 
not one of the 38 countries, they send a lot of people here. 
They have more people in this country on permanent residencies 
of some nature than I have in my whole State, as a population. 
And they don't have the visa waiver. And I think that we can 
make these accommodations and still protect the United States 
of America.
    And, with that, Mr. Chairman, thank you for your 
indulgence, and my time has expired.
    Mr. DeSantis. Thanks. The gentleman's time has expired.
    The chair now recognizes Mr. Cartwright for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And, again, I thank the witnesses to this joint 
subcommittee hearing of the Oversight and Government Reform 
committee.
    You know, my friend Mr. Russell of Oklahoma just intoned 
the phrase, ``We are only the Oversight and Government Reform 
Committee,'' and he was saying so quite tongue-in-cheek, and I 
want to amplify on that a little bit.
    You know, all of us, every single Member of Congress, 
regards as our most solemn duty the protection of the American 
public. And we all feel that way on this committee. And I must 
say that I have some very close and dear friends on the other 
side of this dais; we all feel the same way. And we're all 
looking for strength and unity. And our common purpose is 
protecting the American people. And we're having this hearing 
to that end.
    Now, you know, we've been talking about vetting processes 
and screening processes. And, you know, here on Oversight and 
Government Reform, when we take testimony, we have our own 
vetting and screening processes. In fact, one of them is a form 
that we call the Truth in Testimony form, and all witnesses are 
required to fill it out.
    Ms. Burriesci, you're with DHS--Secretary Burriesci. Is it 
a correct fact that a company called MorphoTrak has a contract 
with DHS right now?
    Ms. Burriesci. I actually don't know the answer to that, 
but I can check. I don't have any contracts in my area.
    Mr. Cartwright. Well, as a matter of fact, it does. In 
fact, I have a news article here that indicates U.S. 
Citizenship and Immigration Services, which is a part of DHS, 
recently entered into a $13.6 million contract with MorphoTrak 
for a fingerprint scanning system.
    And I'd like to enter this into the record, Mr. Chairman.
    Mr. Russell. [Presiding.] Without objection.
    Mr. Cartwright. And this is about you, Ms. Kephart. I'm 
looking at your financial disclosure on the Truth in Testimony 
form, and I'm going to read it. There are only three questions 
on the form.
    ``Please list any Federal grants or contracts you have 
received since October 1, 2012. Include the source and amount 
of any contract.'' You wrote, ``None.'' This is your 
handwriting; am I correct in that?
    Ms. Kephart. Yes, it is, sir.
    Mr. Cartwright. Number two, ``Please list any entity you 
are testifying on behalf of and briefly describe your 
relationship with those entities.'' You wrote, ``No. However, 
to be clear, I'm testifying in personal capacity, although I am 
with a leading biometric company, MorphoTrak, as of September 
2015.''
    And then question number three says, ``Please list any 
Federal grants or contracts, including subgrants or 
subcontracts, received since October 1, 2012, by the entities 
you listed above. Include the source and amount of each grant 
or contract.'' And you wrote, ``None,'' although you had listed 
MorphoTrak in the immediately proceeding answer.
    Ms. Kephart. Correct.
    Mr. Cartwright. And I guess the question is, Ms. Kephart, 
you knew we would be counting on you to be completly honest in 
filling out our Truth in Testimony form, didn't you?
    Ms. Kephart. And I was, sir.
    Mr. Cartwright. Okay.
    Ms. Kephart. This is my 19th time before Congress 
testifying on issues of border security, national security, 
and----
    Mr. Cartwright. Right. So you're not a rookie here. In 
fact, you're a lawyer, aren't you, Ms. Kephart?
    Ms. Kephart. Yes, I am. And----
    Mr. Cartwright. So when you see----
    Ms. Kephart. --I was not with MorphoTrak in 2012, sir.
    Mr. Cartwright. --a Truth in Testimony form that says list 
the entities above that you have contracts with the Federal 
Government and you wrote, ``None,'' are you saying that's 
correct, even though there's a $13.6 million contract with DHS?
    Ms. Kephart. Sir, I am testifying in my personal capacity, 
not on behalf of MorphoTrak. So, yes, I filled out the form in 
terms of my personal capacity. However, if you would like me to 
go back and change the form and list those contracts, I'm happy 
to do so. USCIS has nothing to----do with this testimony
    Mr. Cartwright. Well, what we're interested in here is that 
our forms get filled out correctly and that we have the 
complete context. So when we hear from a witness like you--I 
mean, part of your testimony is recommending that we 
implement----
    Ms. Kephart. And my written testimony, sir, includes that 
discussion on MorphoTrak. I was completely honest.
    Mr. Cartwright. Part of your testimony is that we implement 
recommendations; three of them are to implement biometrics.
    Ms. Kephart. Which I have testified about many times.
    Mr. Cartwright. The company you work for makes and sells 
biometrics. Are you saying it's a matter of complete 
indifference to you whether your employer----
    Ms. Kephart. Yes.
    Mr. Cartwright. --gets this business?
    Ms. Kephart. Yes, sir, I am.
    Mr. Cartwright. You're saying it is. Okay.
    Well, here's the point. House Rule 10 requires this form to 
give committee members, the public, and the press a more 
detailed context within which to view the testimony. And we 
expect, Ms. Kephart--listen, you're not a rookie at this.
    Ms. Kephart. I am happy to go back and redo it, sir.
    Mr. Cartwright. We expect you to fill out the form 
correctly so that we on the Oversight and Government Reform 
Committee and the American public listening to this testimony 
can view your testimony and your recommendations in the 
complete context, not a partial context, not a half-truth, the 
whole truth.
    Will you do that in the future, Ms. Kephart?
    Ms. Kephart. I will absolutely--if you would like, sir----
    Mr. Cartwright. Thank you.
    Ms. Kephart. --I will redo it today.
    Mr. Cartwright. I yield back.
    Mr. Russell. The gentleman yields back.
    The chair now recognizes the gentleman from Ohio, Mr. 
Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Burriesci, earlier this week, the chairman of the 
Homeland Security Committee gave an important speech where he 
talked about extremist groups, terrorist groups that are trying 
to exploit the refugee program. So, like Mr. Russell just a few 
minutes ago, I would like to see if you can give us some 
numbers just so the committee and the American people have this 
information.
    How many Syrian refugees have entered the United States in 
the last year?
    Ms. Burriesci. Sir, I didn't bring any of the refugee 
numbers with me because I was prepared to talk about visa 
waiver. But I can certainly have us send that to you.
    Mr. Jordan. Do you know how many Americans have traveled to 
Syria in the last year?
    Ms. Burriesci. I don't have that number on me either.
    Mr. Jordan. So you wouldn't know how many Americans have 
traveled and then returned?
    Ms. Burriesci. I don't have that number on me.
    Mr. Jordan. How many Visa Waiver Program overstays are 
there currently in the United States?
    Ms. Burriesci. Sir, I didn't bring that number with me.
    Mr. Jordan. Ms. Burriesci, when I look at the witness list, 
you've got the longest title, ``Deputy Assistant Secretary, 
Screening Coordination, Office of Policy, Department of 
Homeland Security.'' You've got the longest title.
    And it says ``Screening Coordination.'' Now, what screening 
are you coordinating? Is that just intra-agency, or is that 
interagency?
    Ms. Burriesci. It's both.
    Mr. Jordan. It's both. So it's all of that.
    Ms. Burriesci. I coordinate across DHS components as well 
as----
    Mr. Jordan. And the two biggest issues right now that we're 
dealing with relatively, we had these terrible tragedies, 
terrible terrorist attacks, and we're talking about the refugee 
issue and the Visa Waiver Program issue, and you can't give us 
any numbers on either program?
    Ms. Burriesci. Sir, I came prepared to talk about the Visa 
Waiver Program.
    Mr. Jordan. And I just asked you how many Visa Waiver 
Program overstays are there, and you said you don't know.
    Ms. Burriesci. Sir, I don't have a number. The Visa Waiver 
Program----
    Mr. Jordan. So when I ask how many overstays of the Visa 
Waiver Program may have traveled to Syria before they got here, 
do you know that number?
    Ms. Burriesci. Sir, if a Visa Waiver Program national has--
a citizen of a Visa Waiver Program country, rather, has 
traveled to Syria, Iraq, or a conflict zone and they are 
considered a foreign fighter, that VWP country----
    Mr. Jordan. I'm not asking that. I'm saying someone from 
Great Britain comes to the United States on a Visa Waiver 
Program and they are now an overstay, do we know if that 
person, who is here today--maybe they're not even an overstay--
do we know if that person has been to Syria before they came to 
the United States? Do we know that?
    I mean, I know this is what our bill that we just passed 
earlier this week is trying to get to. I'm asking, do we know 
that information now?
    Ms. Burriesci. So that's why we have the IC involved and 
there's an intelligence assessment, and we use----
    Mr. Jordan. I wasn't asking that. Do we know that? Do you 
know the number?
    Ms. Burriesci. I don't know the number, but that's why I'm 
trying to explain that the----
    Mr. Jordan. But do we have people who are in that category 
I just described, come from a Visa Waiver Program country, they 
are here today and may have been in Syria or Iraq or somewhere 
there before they came here? Do we know that?
    Ms. Burriesci. If a citizen of a VWP country has traveled 
to one of those areas, there's a nexus to United States, or the 
VWP partners shared that information with us, yes, we know that 
information, and we will vet against it. We will also use our 
algorithms----
    Mr. Jordan. But could they be here right now is my 
question.
    Ms. Burriesci. I don't have that answer, sir.
    Mr. Jordan. All right.
    Well, how about, can you tell me anything about the no-fly 
list then? You can't tell me anything about those--how does a 
person get put on--the criteria for that? Can you tell me 
anything about that?
    Ms. Burriesci. Sure. The no-fly list is a subset of the 
overall screening database. The interagency works together. The 
Terrorist Screening Database is owned and operated by the 
Terrorist Screening Center, as I said earlier. There are 
criteria to get on that that are agreed to----
    Mr. Jordan. How many American citizens are on that list 
right now? Can you give me that number?
    Ms. Burriesci. I'm sorry, sir?
    Mr. Jordan. How many American citizens are on the no-fly 
list right now?
    Ms. Burriesci. I know there are American citizens on the 
list. It is an extremely small number, but I don't have my 
numbers with me. But, again, that is something I can easily get 
back to you afterwards.
    Mr. Jordan. Ms. Burriesci, I've asked you the number of 
Americans who've traveled to Syria, you don't know; the number 
of Americans who may have traveled and returned, you don't 
know; the number of Syrian refugees who have entered the 
country in the last year, you don't know; the number of Visa 
Waiver Program overstays, you don't know; the number of visa 
waiver overstays who may have been to Syria before they came 
here, you don't know; and the number of American citizens on 
the no-fly list, and you don't know.
    And yet you are the Deputy Assistant Secretary for 
Screening Coordination, Office of Policy, Department of 
Homeland Security, in front of the Oversight Committee, and you 
can't give us one single number to some, I think, pretty basic 
questions?
    Ms. Burriesci. Some of those statistics aren't held by DHS, 
and so that's why I would like to work with my interagency 
partners to get you----
    Mr. Jordan. That's why I referenced your title. You're the 
one who's the screening coordinator for all this, and you said 
you were interagency. That's why I referenced your title. It 
seems to me, when you come in front of this committee, you 
should have that information.
    Ms. Burriesci. I'm a DHS employee. I am a DHS career civil 
servant employee. And I will work with my interagency partners, 
but they're the authoritative source for a lot of those numbers 
that you mentioned.
    Mr. Jordan. If you could get us those numbers and the ones 
Mr. Russell asked for, that would be very helpful.
    I thank you, Mr. Chairman.
    Mr. Russell. And if I may answer one of your questions, 
according to the Department of State, for fiscal year 2015, up 
to the 18th of November, there were 1,810 Syrians that had come 
into the country on the refugee program.
    The chair now recognizes the gentlelady from New Jersey, 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here.
    On Sunday, President Obama took the rare step of addressing 
the Nation from the Oval Office to discuss the recent terrorist 
attacks in San Bernardino and Paris and the rising level of 
unprecedented violence that the world is facing.
    In Sunday's address, only his third from the Oval Office, 
the President called on Congress to take specific and immediate 
steps to protect the American public from further acts of 
terrorism. The President, however, was clear that those steps 
should not be driven by fear.
    Here is what he said, and I quote: ``Our success won't 
depend on tough talk or abandoning our values or giving in to 
fear. That's what groups like ISIL are hoping for. Instead, we 
will prevail by being strong, smart, resilient, and relentless 
and by drawing upon every aspect of American power.''
    The threat of ISIS is real. It is ultimately the goal of 
ISIS to instill fear, causing us to make decisions we would not 
otherwise make. And we must resist that urge to live in fear.
    Mr. Gude, you have written about the exploitation of fear 
to influence public policy, and you said something in your 
testimony today that I want to highlight. You said, and I 
quote, ``What is unacceptable and dangerous to American 
security are the kind of rhetoric and policy proposals that 
attempt to exploit Americans' reasonable fears for political 
gain and try to push a jittery population,'' which is an 
understatement, ``toward increased hatred and prejudice.''
    What are the dangers of fear-based policy?
    Mr. Gude. Well, I think there's two things.
    One, it is often the case that when we make policy 
decisions in the immediate aftermath, with incomplete 
information and motivated out of a sense of fear, those 
policies over the medium and long term don't particularly turn 
out as we intended.
    Secondly, I think that when we create a climate of fear and 
suspicion within the United States we risk alienating Muslim 
Americans and our Muslim populations, making it a situation in 
which they are more susceptible to the kind of sophisticated 
recruiting techniques that ISIS employs.
    Now, again, I want to reiterate that I am not rationalizing 
any decision to join ISIS. Everyone has the agency, they make 
their own decisions, and there is no justification for joining 
a group like ISIS, whether or not you intend to commit 
violence.
    But it is incumbent, I think, on policymakers to understand 
the motivations for why people do join ISIS and make it much 
more difficult for ISIS to get people into their ranks.
    Mrs. Watson Coleman. The President also called for the 
rejection of discrimination and proposals to treat Muslim 
Americans differently. Do you agree?
    Mr. Gude. Yes. Absolutely.
    Mrs. Watson Coleman. Discriminatory policies are 
inconsistent with the Constitution but also seem 
counterproductive from a security standpoint. What effect do 
these policy ideas have on ISIS and similar terrorist 
organizations?
    Mr. Gude. Well, the narrative that ISIS is using, both 
talking to people who are already in its ranks and trying to 
recruit them, is that we are in a clash of civilizations, where 
the crusaders, or the West, versus ISIS, representing Islam. 
And when we in the West buy into that rhetoric, describe it as 
a clash of civilization, it makes it easier for ISIS to sell 
that narrative.
    What they are trying to do, they divide the world into 
three groups--the West, ISIS, and in the middle they call 
something called the gray zone. Now, their description of the 
gray zone is targeted at Muslims who live in the West and have 
not yet joined ISIS, not yet come to the caliphate, as they 
describe where they are in Iraq and Syria. And their effort is 
to literally destroy that gray zone by pushing Muslims toward 
ISIS.
    Now, when we in the West engage in an anti-Muslim backlash, 
we make that job easier. Now, again, I want to reiterate that 
there is no justification for making that decision. But, in our 
own actions and in our own policies, we should understand what 
ISIS is trying to do and not play right into their hands.
    Mrs. Watson Coleman. Much of this anti-Muslim rhetoric has 
surrounded this Syrian refugee population, who a recent Cato 
Institute report found to pose no significant threat to the 
United States. Specifically, Cato found in a November 18, 2015, 
report titled, quote, ``Syrian Refugees Don't Pose a Serious 
Security Threat,'' that, I quote, ``Of the 859,629 refugees who 
have entered the United States since 2001, 3 have been 
convicted for planning a terrorist attack abroad and exactly 
zero have perpetrated domestic attacks.''
    With the rise of ISIS and the growing number of threats 
against the United States, we are seeing more and more 
suggestions for policies that lead to unintended consequences 
of trampling on the civil rights and liberties of American 
Muslims, and these ideals are inconsistent with ours.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Russell. The gentlelady yields back.
    And the chair now recognizes the gentleman from South 
Carolina, Mr. Mulvaney.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    I'm going to try and get to something that might be a 
little bit more simple, a little bit more straightforward, 
which is going back to something I heard during the opening 
testimony of Ms. Kephart and Ms. Burriesci.
    And I apologize. When you have a last name like 
``Mulvaney,'' it gets mispronounced a lot. So I apologize if 
I'm butchering yours--about the Visa Waiver Program, the basics 
of it.
    Here's my question to both of you. I am a French national. 
I'm born there, I'm living in one of the suburbs, I have become 
a radicalized Islamist. Can I get on an airplane tonight to 
come to the United States of America?
    Ms. Burriesci?
    Ms. Burriesci. You're doing great with the name.
    Mr. Mulvaney. Thank you.
    Ms. Burriesci. A French national who wants to come to the 
United States for business or tourism reasons would require an 
ESTA. For any other reason, they would require a visa. The 
checks would be the same----
    Mr. Mulvaney. I want to get in as quickly as I possibly 
can. I want to say I'm a tourist. Because I want to come here 
and blow something up. Could I get on the plane tonight and do 
that?
    Ms. Burriesci. If we have that derogatory information, 
absolutely not, regardless of----
    Mr. Mulvaney. But tell me the process I have to go through 
before I can get on the airplane.
    Ms. Burriesci. You have to have--so you have to fill out an 
online application or a visa application, again, depending on 
your purpose for coming to the United States, and those are 
vetted.
    Regardless of either, the same biographic checks are 
occurring. You're hitting the Terrorist Screening Database, the 
terrorist watch list, you're hitting State Department's 
holdings, you're hitting DHS holdings, you're hitting the 
National Counterterrorism's holdings. And you're going to be 
recurrently vetted.
    If we have derogatory information that you have ill intent, 
you're a terrorist, you're a known or suspected terrorist, 
absolutely not. Either one, you're going to get denied.
    Mr. Mulvaney. So, regardless of whether or not I'm a 
terrorist, I'm a French national with a French passport, and I 
just decide tonight that I want to get on an airplane and come 
to New York, I have to go through the process that you just 
mentioned.
    Ms. Burriesci. Absolutely. Nobody can just walk on a plane 
and come to the United States.
    Mr. Mulvaney. Ms. Kephart, is that right?
    Ms. Kephart. Yes, it's right, as long as the terrorist has 
decided to use his real identity.
    So, yes, Kelli Ann's process is, indeed, correct. You have 
to fill out an online ESTA process. You can even do that 
process at the airport. But it's only biographic, and that's 
the difference.
    Mr. Mulvaney. Okay. And let's build on that a little bit. 
How long does it take to do that? You say I can do it at the 
airport.
    Ms. Burriesci, how long does it take me to actually go 
through that vetting process? Again, I'm assuming that I'm not 
lying yet. I haven't stolen passports; that's a different 
issue. I'm not trying to hack a computer. I'm just an ordinary 
French citizen with a passport. How long does it take to do 
that?
    Ms. Burriesci. It's a short period of time to clear, 
assuming everything is coming back green. Certainly, if there's 
a flag of any kind, you're referred to the nearest consulate.
    Mr. Mulvaney. Okay. So if there's no flag--because what 
we're hearing now is that, while some of the terrorists in 
France, in the Paris bombings, were on some lists in France, 
others were not. So those folks, apparently, would not have 
come up on your background check, your vetting process.
    Am I saying anything that's inaccurate so far? If we didn't 
know about them and the French didn't know about them, they 
would have cleared those background checks, right?
    Ms. Kephart is saying yes.
    Ms. Burriesci. Yes. The response would have been the same, 
whether it was an ESTA or a visa.
    Mr. Mulvaney. Okay. So how long would it have taken to go 
through that process?
    Ms. Burriesci. The ESTA application vetting is not a long 
period of time. You can do it that day.
    Mr. Mulvaney. Okay.
    Ms. Burriesci. Yes, sir.
    Mr. Mulvaney. Okay. So I guess what I'm hearing then--and 
what I'm always concerned about is if I'm getting good 
information and the folks I represent are getting good 
information. And what I am hearing is that if I read something 
on the Internet, saw it on the news, heard it on talk radio, 
that said that at least some of the Paris bombers could have 
come into this country and we would never have known about it 
because of the Visa Waiver Program, that is a true statement.
    Ms. Burriesci. I would really have to refer you to the 
FBI's Terrorist Screening Center for additional information 
other than what I've already said.
    Mr. Mulvaney. That's fine. Let's assume, then, for my 
question that the French didn't know they were potential 
terrorists and we didn't know they were potential terrorists. 
They would be able to come in the same day.
    Ms. Burriesci. If there is no derogatory information----
    Mr. Mulvaney. I'm not trying to accuse you of not doing 
your job. I'm just getting trying to get information.
    Ms. Burriesci. No, I understand, sir.
    Mr. Mulvaney. Okay.
    So, Ms. Kephart, how do we fix that?
    Ms. Kephart. As I discussed in my testimony, I think the 
win-win for everybody--for DHS, for the program itself, for the 
traveler--is establishment of preclearance and making that 
mandatory, something DHS has been pursuing for a while.
    They're having trouble because every country they have to 
develop an MOU with. If you made it part of the Visa Waiver 
Program and established some requirements, I think it would 
make it easier for Customs and Border Protection to do that 
negotiation and to get that vetting prior to boarding, which is 
what everybody is always concerned about.
    Mr. Mulvaney. Very quickly to both you ladies--and I'm 
going to go a little bit over time but not too much--is the 
bill that the House passed earlier this week on a large 
bipartisan margin, does that actually help the situation?
    Ms. Burriesci. Yes--oh.
    Mr. Mulvaney. Ms. Kephart?
    Ms. Kephart. Go ahead.
    Ms. Burriesci. Yes, sir. The bill adds practical security 
value in many areas.
    Mr. Mulvaney. Ms. Kephart, do you agree with that?
    Ms. Kephart. It does--it reiterates current law. I don't 
think it goes too much further than what we have on the books 
right now. The requirement regarding information regarding 
people who have traveled to terrorist known spots, that's going 
to be very difficult to enforce, I think.
    So I think it's a very good start. I really appreciate that 
it was bipartisan and the White House is on board and this is 
moving forward together, but----
    Mr. Mulvaney. Last question.
    Ms. Kephart. --we need more.
    Mr. Mulvaney. I appreciate the indulgence. Last question. 
Are we more at risk from someone traveling here from the United 
Kingdom, which is a Visa Waiver Program country, because of the 
information we get from them, or are we more at risk from 
someone traveling from Russia, which does not participate in 
the Visa Waiver Program?
    Ms. Burriesci?
    Ms. Burriesci. Sir, I certainly that think the Visa Waiver 
Program adds additional security value than just vetting the 
traveler alone. Because we have those information-sharing 
arrangements, they are sharing their known or suspected 
terrorists and foreign fighters with us. They are meeting 
security standards----
    Mr. Mulvaney. Because the U.K. participates in the program, 
they give us information that other countries that do not 
participate in the program do not.
    Ms. Burriesci. That's exactly right, sir.
    Mr. Mulvaney. Do you agree with that, Ms. Kephart?
    Ms. Kephart. Well, I think the difference with U.K. is it's 
one of the Five Eyes countries, so we have better information-
sharing with them than we do even with some of the other visa 
waiver countries. So perhaps you take a country like Belgium, 
which is not one of the Five Eyes--and then I still think the 
Visa Waiver Program offers the opportunity to land in the 
United States in a more vulnerable way than the visa process 
does, although there are some benefits that Ms. Burriesci has 
discussed.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Mr. Russell. The gentleman yields back his time.
    And the chair now recognizes the gentlelady from Michigan, 
Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair and Ranking Member.
    I just want this on the record, that we passed a bill 
before we had this dialogue. And, to me, in Congress, that is 
not the process that the American people want us to do. This 
dialogue is important, and it should have happened prior to us 
voting on the bill.
    I'm going to bring up an issue that I have continuously 
talked about. Gun violence has been an issue that I've been 
focused on since my time in Congress, particularly my district, 
which has been plagued with gun violence. This is the first 
year in history of our country that gun deaths are tracking to 
be the leading cause of deaths of Americans age 15 through 25. 
We are losing a generation to senseless gun violence.
    The issue is becoming more disturbing when we hear that 
there is the possibility that terrorists, identified 
terrorists, are able to legally purchase weapons that they need 
to commit act of violence simply because of a loophole in the 
law.
    Mr. Chair, I wanted to enter into the record the GAO 
statement and letter dated March 6, 2015, if I may.
    Mr. Russell. Without objection.
    Mrs. Lawrence. The Government Accountability Office 
recently analyzed FBI data on background checks for firearm-
related purchases for individuals on the terrorist watch list 
between February 2004 and December of 2014.
    Mr. Gude, are you familiar with this recent GAO study?
    Mr. Gude. Yes.
    Mrs. Lawrence. According to this GAO report, individuals on 
the terrorist watch list attempted to purchase firearms or 
explosives in the U.S. at least 2,233 times, of which 2,043 of 
those sales were approved.
    Mr. Gude, that means that 91 percent of the attempts by 
suspected or known terrorists to purchase firearms were 
approved. Is that correct?
    Mr. Gude. To my knowledge, yes.
    Mrs. Lawrence. In just the 2-year period between January 
2013 and December of 2014, individuals on the terrorist watch 
list were involved in firearm-related background checks 485 
times, of which 455 were approved. That is a 94-percent 
approval rate. Anyone that hears that number should have a 
sense of concern.
    My question to you, sir, is that, while we have individuals 
who are legally not restricted--and we're talking about 
individuals coming to this country. Tell me, what is your 
opinion on the concern on the purchases of guns by those who 
have been identified as terrorists?
    Mr. Gude. Thank you for your question. It is an issue of 
grave concern. And I want to applaud all the members of the 
committee for their attention to the details in the questions 
that the panel has received trying to identify where the actual 
risks are in our system. This strikes me as one of our serious 
risks.
    In his opening remarks, Chairman DeSantis identified that 
one of the categories of potential terrorist attacks are people 
who are radicalized in the United States. There would be no 
visa waiver or visa program or screening at the border that 
would catch those individuals. We are relying on the 
information that our intelligence agencies and our law 
enforcement community have about those individuals to ensure 
that they can detect and prevent any plots that target 
Americans here in the United States.
    It is hard for me to reconcile the level of risk tolerance 
that many are advocating for entry into the United States, 
which is understandably extremely low and one that I broadly 
support, with what is the level of risk tolerance for 
individuals who are on the terror watch list, who we either 
know or suspect of links to terrorism, to be able to buy 
semiautomatic assault weapons.
    Now, any process that restricts the access to purchasing 
weapons must also include an opportunity for a redress there. 
You know, if there's an error in the list, if you were 
erroneously denied purchase, there ought to be a robust process 
for you to be able to have that decision overturned if it is 
incorrect.
    But the notion that we should allow potential errors in the 
system to prevent us from denying easy access to the most 
dangerous firearms to people that we think are terrorists is 
just mind-boggling.
    Mrs. Lawrence. Thank you.
    Mr. Chair, I just want to end with this chilling comment by 
a senior Al Qaeda operative. And I quote: ``America is 
absolutely awash with easily obtainable firearms. You can go to 
a gun show and pick up a fully automatic assault rifle without 
background checks. So what are you waiting for?'' That is one 
part of the radicalization.
    The other thing I want to say before I close is that the 
comprehensive and deliberate policy to fight against terrorism 
is absolutely our job in Congress. And this issue should be 
just as much a part of the debate and a part of the discussion.
    And the next time we have someone coming here from the 
Department of Homeland Security, I would hope that they would 
have more data and be better prepared so that we can get more 
information.
    Thank you.
    Mr. Russell. And the gentlelady has yielded back her time.
    I wish to address one item. You cannot purchase a fully 
automatic anything at a gun show. They are controlled by the 
Bureau of Alcohol, Tobacco, and Firearms with a $200 tax stamp. 
It takes months of approval, if approved, extensive checks. 
There is a lot of inaccurate information out there, and I would 
just correct the panel member on this issue.
    An assault rifle is a select fire rifle that you can switch 
from semiautomatic to fully auto. You cannot go and purchase 
one of those anywhere. And we should not take the bait on ISIS 
propaganda. And while we're having these discussions, we can't, 
on suspicion alone, allow our constitutional liberties to fall 
prey to such inaccurate nonsense.
    And, with that, I would like to turn over the chair--well, 
actually, I will turn to and recognize Mr. Mica from Florida, 
and then I will turn over to the chair.
    Mr. Mica. Well, thank you.
    And, again, the gentlelady preceding me mentioned about the 
deaths in the United States with firearms. And most of those 
weapons are obtained illegally. And it appears even in the San 
Bernardino case that some of the weapons were obtained 
illegally. So they are available.
    In France, they probably have the tightest gun control 
measures, and I'd love to share with you a list of the weaponry 
that was assembled in the latest Paris attack. And I was over 
and actually saw the sites of the Hebdo and the deli attack. 
And I saw the weaponry that was assembled there with a very, 
very, very, very, very tight gun control.
    I have a question first for the Homeland Security witness. 
Okay. We had this female terrorist in San Bernardino, and she 
was granted a visa to enter the United States, a fiance(e) 
visa, as far as we know. Do you think that is the case, or 
you----
    Ms. Burriesci. She did have a K-1 visa, yes.
    Mr. Mica. Okay. And to do that, she had to submit to an 
interview. Is that correct?
    Ms. Burriesci. Yes, with State Department.
    Mr. Mica. So she had an interview. She also had to provide 
some biometrics. Is that correct?
    Ms. Burriesci. Yes, sir. Biometrics and biographic 
information and an interview----
    Mr. Mica. But biometric?
    Ms. Burriesci. All of them as part of the visa application.
    Mr. Mica. Okay. So that's the same method, though, that 
pretty much we will be adopting should the Visa Waiver Program 
we just--we just considered before Congress pretty much the 
same thing, an interview and biometric, because that's what is 
missing. If you want to come in on a visa waiver, you don't 
have to go through that now. Is that the case?
    Ms. Burriesci. All those checks occur, and it's a matter of 
the timing of where they occur.
    Mr. Mica. But, again, we're talking about doing the same 
kind of thing we did with her.
    Ms. Burriesci. There----
    Mr. Mica. Yes. Yes. The answer is yes. I'll answer my own 
question.
    Okay. So a French passport, if you entered as a French 
citizen, does it contain biometric?
    Ms. Burriesci. So all the visa waiver programs are issuing 
e-passports, and the minimums----
    Mr. Mica. Do they have biometric?
    Ms. Burriesci. So the minimum standard for----
    Mr. Mica. Do they have biometric?
    Ms. Burriesci. Yes, sir. It has a digital photo in it. Yes.
    Mr. Mica. A photo. Do they have fingerprints?
    Ms. Burriesci. Many visa waiver programs also include--not 
many. I'm not actually----
    Mr. Mica. Some do.
    Ms. Burriesci. --sure of the number, but some have 
fingerprints.
    Mr. Mica. But some don't.
    Ms. Burriesci. But some don't, similar to the United States 
doesn't----
    Mr. Mica. And many entry points in the United States do not 
have the capability of fingerprint verification, do they?
    Ms. Burriesci. I'm sorry, I missed the beginning of your 
question.
    Mr. Mica. Many entry points in the United States do not 
have the ability or the capacity to confirm fingerprint 
identification.
    Ms. Burriesci. So all of our ports of entry do capture and 
run checks on biometrics. If you're referring to the e-Passport 
itself, all CBP----
    Mr. Mica. When you come across the Mexican border, all of 
those folks coming in are, in fact--their fingerprints are 
being checked?
    Ms. Burriesci. Yes.
    Mr. Mica. Ms. Kephart says no.
    Ms. Burriesci. It depends if we're talking about the e-
Passport or just----
    Mr. Mica. No, just people coming----
    Ms. Burriesci. Everybody coming into the country----
    Mr. Mica. No, they are not.
    Ms. Burriesci. --yes, we take their prints for individuals 
coming into the country. Visa Waiver Program or visa, we're 
taking people's prints and we're running checks on them.
    Mr. Mica. A French citizen who comes into the United States 
is coming in with a passport that might have photographic 
information embedded in it, but they don't have fingerprint.
    Ms. Burriesci. But they're going to see a CBP officer and 
they're going to have their fingerprints taken.
    Mr. Mica. Every French citizen who comes in?
    Ms. Burriesci. Yes, sir.
    Mr. Mica. And we have the capability at every border to 
capture that, and we're doing it with all foreign nationals 
that are coming in? 
    Ms. Burriesci. The person is going to provide their prints 
right there at the POE, and we are going to run checks.
    Mr. Mica. And Ms. Kephart is saying no.
    Ms. Burriesci. We read their e-Passports and pull up their 
digital photo. So we're not lifting fingerprints from the 
passport; we're actually taking it from the passenger.
    Mr. Mica. But they're not embedded in that, so you don't 
know what----
    Ms. Burriesci. So most countries--not most countries. Most 
e-Passports, if you do have fingerprints on the chip----
    Mr. Mica. Yes. But, again, you're saying ``most,'' not 
``all.'' And we don't do this with all, and we have no 
capability for all.
    Ms. Burriesci. We do have the capability, sir, to read the 
e-Passport, and we do take----
    Mr. Mica. But you keep talking about the e-Passport, and a 
lot of these are not e-Passports.
    Let me ask you a question. When you go through and grant a 
visa, are the State Department folks who are doing the 
interviewing, are they all checking these folks against the 
U.S. no-fly list?
    Ms. Burriesci. Yes, sir.
    Mr. Mica. They are?
    Ms. Burriesci. Yes. ESTA or visa, everybody gets run 
against the terrorist watch list.
    Mr. Mica. No, I didn't ask about the terrorist watch list.
    Ms. Burriesci. Oh, did I misunderstand?
    Mr. Mica. I asked about the no-fly list. I think there's--
--
    Ms. Burriesci. The no-fly list is a subset----
    Mr. Mica. --400,000 people.
    Ms. Burriesci. I'm sorry. I don't mean to interrupt. The 
no-fly list is a subset of the overall terrorist watch list.
    Mr. Mica. But my question was the no-fly list.
    Ms. Burriesci. Yes, they are run against the no-fly list.
    Mr. Mica. Okay.
    And the problem you have is, we've seen with the latest 
incident we have certain protections, we had an interview of 
this individual, and that individual defied us. I mean, the 
same system you put in place we may be putting in place for 
visa waiver. You don't know what is in people's hearts and 
minds. These people are already, some of them, are--one was 
embedded, one came in, and it's very difficult.
    I don't have time to get into profiling, but there's some 
commonality to all of these folks. I won't get into that today. 
And I think we have to go beyond what we're doing now or we're 
not going to stop these individuals.
    And I yield back the balance of my time.
    Mr. Mulvaney. [presiding.] I thank the gentleman.
    We'll now recognize the lady from the District of Columbia, 
Ms. Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I'm going to tell you, because I represent the Nation's 
capital, my district is caught both ways. On the one hand, we 
have very much approved the Visa Waiver Program. About the only 
tourists who don't come to the Nation's capital are 
international tourists--that is to say, where there are more to 
come, on the one hand. And yet the Nation's capital is a major 
terrorist target. So that balance is very difficult for us.
    On the terrorist watch list, Ms. Burriesci, you have been 
asked endlessly about the numbers on that list or the no-fly 
list. I am far less interested in the numbers than I am in the 
controversy surrounding that list.
    Those who want people to be able--and, by the way, there is 
a bipartisan bill, Peter King's bill, that would say, once you 
get on that list, you can't by a gun. I am cosponsor of that 
bill. But, of course, there have been attempts to pass a ``no 
gun if you're on that list,'' tries here in the House and the 
Senate.
    Since 9/11, there has been endless controversy that those 
who want people to be able to buy guns no matter what have, 
frankly, used, and that is the inaccuracy--the so-called 
inaccuracy, because that's really my question--of the terrorist 
watch list and the no-fly list.
    Could I ask you, what attempts have been made to address 
the accuracy issue that has now sent some people--I think the 
ACLU is in court on the inaccuracy of the issue on behalf of 
some people who were on the list who shouldn't have been on the 
list. Can you give us any information on how or what you are 
doing to clean those lists so that they are accurate?
    Ms. Burriesci. Yes, ma'am. Thank you for asking that 
question.
    Not only are there robust criteria to even get on that 
list, but that list is reviewed regularly by the Terrorist 
Screening Center that owns it----
    Ms. Norton. So, because I only have 5 minutes----
    Ms. Burriesci. --to make sure that----
    Ms. Norton. So it's reviewed regularly. And does that mean 
that you are regularly putting on and removing names and that 
you believe that the list is basically accurate?
    Ms. Burriesci. Ma'am, there are people that get on the list 
and change status on the list on a daily basis.
    Ms. Norton. How about people who have the same name? You 
know, we always talk about people named John Kennedy or some 
such name, Eleanor Holmes Norton maybe. Do you deal with people 
who have common names?
    Ms. Burriesci. So there is something called the DHS 
Traveler Redress Inquiry Program. It is a one-stop shop for 
the--it's operated out of TSA, but it's a one-stop shop for all 
travelers.
    Ms. Norton. If you are on the list and shouldn't be on the 
list, is there an appeal process so you can get off the damn 
list?
    Ms. Burriesci. I'm sorry?
    So you can apply through TRIP if you feel that you've 
been----
    Ms. Norton. So there is an appeal process.
    Ms. Burriesci. If your travel has been delayed, you can 
apply there. And if you're not that Burriesci----
    Ms. Norton. I wish you would provide----
    Ms. Burriesci. --then you get a number that you----
    Ms. Norton. I wish you would provide us some information on 
the process being used so the chair will have it to check on 
the accuracy, because I have another----
    Ms. Burriesci. Certainly.
    Ms. Norton. --question.
    Ms. Burriesci. Certainly.
    Ms. Norton. It's on the EB-5 program. Again, my district 
has used the EB-5 program. You know, of course, that that is a 
program that allows investment in exchange, I believe, for a 
visa. And you have to say that you're going to provide 10 
permanent jobs. There are things that have been built in the 
District of Columbia, big things, using that program.
    How are those people vetted, EB-5 investment visas? Do they 
go through the normal visa process, or do they go through some 
other process?
    Ms. Burriesci. I know vetting is done on those, but I don't 
have the specifics on the EB-5. That's not one of the areas I 
have concentrated on and have information. But that is 
something, certainly----
    Ms. Norton. Ms. Kephart, do you know anything about that?
    Ms. Kephart. I have in the past, and I'm really sorry, but 
I don't have it at the----
    Ms. Norton. Mr. Chairman, could I ask that that information 
be provided to this committee?
    This has been a popular program here and across the United 
States. We need more information on visas in connection with 
that program, as well. It's not only the person; it's relatives 
that can come in.
    Thank you very much, Mr. Chairman.
    Mr. DeSantis. [presiding.] We will be doing a hearing on 
the various visa programs, and I think that that will obviously 
be one that will be grist for the mill.
    Okay. The chair now recognizes the gentleman from North 
Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for your testimony.
    Ms. Burriesci, let me come to you and follow up where Mr. 
Jordan left off on visa overstays.
    In part of your testimony here today, you said you're 
making progress, that the quality of the data with regards to 
visa overstays is improving, I think. Is that correct?
    Ms. Burriesci. Yes, sir.
    Mr. Meadows. Okay. So if the quality of the data is 
improving and yet--so you're able to testify to that, but you 
have no idea how many people overstay their visas. Do you have 
any idea? A ballpark?
    Ms. Burriesci. Sir, we have preliminary numbers----
    Mr. Meadows. And what would those be?
    Ms. Burriesci. --that the Department has compiled, and we 
are doing a thorough review of those numbers because we know 
how important they are. The Secretary has----
    Mr. Meadows. Well, the Secretary--let's get to that. The 
Secretary, in testimony----
    Ms. Burriesci. --ensured we do our due diligence on these 
numbers.
    Mr. Meadows. No, but the Secretary, in sworn testimony 
before Congress in 2013, said that she would get them to 
Congress by December of 2013, and here we are almost 2 years 
later. So how long does it take to verify the numbers?
    Ms. Burriesci. Sir, we know how important these numbers 
are, and we----
    Mr. Meadows. That's not what I asked. I said, how long does 
it take to verify the numbers?
    Ms. Burriesci. Well, at that time, we were still looking 
back at data that was from where the systems were not working 
well together. And now they are----
    Mr. Meadows. Okay. Is it true----
    Ms. Burriesci. --better at giving us additional----
    Mr. Meadows. All right. Is it true that you have an 
internal memo that goes through your agency, or at least to 
some in your agency, that would indicate the number of visa 
overstays?
    Ms. Burriesci. Yes, sir. It----
    Mr. Meadows. I thought it was. I have information that 
would indicate that it is. So what number is on that internal 
memo?
    Ms. Burriesci. It is a draft interim entry/exit----
    Mr. Meadows. That's not what I asked. That's a great answer 
to a question I didn't ask.
    Ms. Burriesci. I'm sorry.
    Mr. Meadows. What number is on that internal memo?
    Ms. Burriesci. I can----
    Mr. Meadows. Ballpark. I'll give you plus or minus 10,000. 
What ballpark?
    Ms. Burriesci. I'll take that back to the Department, sir.
    Mr. Meadows. Is it less than a million?
    Ms. Burriesci. Sir, I will----
    Mr. Meadows. Have you seen the memo?
    Ms. Burriesci. I have, but it has been a little while since 
I have seen it.
    Mr. Meadows. All right. So you have seen it. You looked at 
a number. Was the number greater than a half-million?
    Ms. Burriesci. Sir, I don't have a number to----
    Mr. Meadows. So you're refusing to answer the question. 
It's not that you don't know. Is that correct?
    Ms. Burriesci. Because the numbers are still going through 
finalization, I'm not authorized to provide a draft number.
    Mr. Meadows. Okay, but Federal law requires that you report 
that to Congress, does it not?
    Ms. Burriesci. Yes, sir, the Department is responsible to 
do that.
    Mr. Meadows. So at what point are you going to comply with 
Federal law?
    Because, in 2011, the number was 1.6 potential visa 
overstays--million, 1.6 million. In 2013, according to GAO, it 
was potentially 1 million visa overstays. How many visa 
overstays does it take to take down the Twin Towers?
    Ms. Burriesci. Sir, I can't answer that.
    Mr. Meadows. So when is this committee going to get the 
information on visa overstays?
    Ms. Burriesci. I understand the urgency that you're asking 
that question. And I'll make sure that that gets back to my 
front office.
    Mr. Meadows. Listen, they already have the request. At what 
point are you going to comply with Federal law and give it to 
this committee? At what point? I mean, or maybe I'll ask it a 
different way: What justification do you have to violate 
Federal law?
    Ms. Burriesci. Sir, I will take back exactly what you're 
asking and make sure that my front office is aware----
    Mr. Meadows. Do we have to subpoena the numbers?
    Ms. Burriesci. I don't have a better answer for you today. 
I'm sorry, sir.
    Mr. Meadows. All right. So if we're looking at the visa 
overstays--and we're sitting here debating about a Visa Waiver 
Program, and yet the very instance of visa overstays and the 
potential terrorist threat that accompanies that, you're 
tracking that, and yet the last information that Congress got 
that was reliable was 1994. Do you not see a problem with that?
    Ms. Burriesci. I think you should receive the data as soon 
as it is available. And I will take that back to the--and 
provide it to my department's front office and make sure that 
they understand exactly what you're asking.
    Mr. Meadows. Let me finish by asking, would you think 30 
days would be reasonable enough to vet the numbers?
    Ms. Burriesci. I'm not sure. I don't have a timeframe. But 
I want to make sure that----
    Mr. Meadows. So let me make sure I understand this 
correctly. You can sit here and give us sworn testimony that 
you're vetting with unbelievable surety from a national 
security risk all the potential people coming from abroad here 
and that you can vet those as it relates to national security 
risk, but you can't vet the number of visa overstays with any 
degree of certainty in the 2-year period?
    Ms. Burriesci. Sir----
    Mr. Meadows. Was that your testimony?
    Ms. Burriesci. No, sir. We are vetting against law 
enforcement and counterterrorism and international databases. 
That is the screening aspect----
    Mr. Meadows. How hard is it to figure out how many visas 
overstays we have? That should be easy.
    Ms. Burriesci. Yes.
    Mr. Meadows. You got one document; you got one that doesn't 
match up. What is the difference? It's simple mathematics. I 
yield back.
    Mr. DeSantis. The gentleman yields back.
    You got to do better than that, Ms. Burriesci. This is not 
inspiring a lot of confidence. And I think that more questions 
have been raised than answered.
    I will now recognize Ms. Lujan Grisham for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And, quite frankly, you just stole my opening statement. I 
mean, we are all here wanting to do the very same thing, to 
highlight the vast, productive, high-level security effort 
that, quite frankly, outside sources have done a far better job 
identifying our strengths than certainly anybody from the 
administration today on this panel or prior to this panel.
    And in this job, it is our job to make sure that the 
information and sources that we are seeing, reading, 
evaluating, gathering, that you can confirm or deny those so 
that in that reporting process--whether it be through 
testifying before this committee or providing those reports--
that we can do our job effectively by assisting you with policy 
shifts that enhance your opportunities.
    But what we're getting here today is ``I'm not sure,'' ``I 
don't know,'' ``can't do it,'' ``haven't seen it,'' ``can't 
really tell you.'' And I'll tell you this, with only three 
major databases, as I understand it, and doing a quick search 
while I've been sitting in this committee for the past 30 
minutes, I can tell you what the Wall Street Journal says. The 
Wall Street Journal says that there are 16,000 names on the 
watch list. On TIDE, there's about 1 million people and that 
there's a much smaller--they didn't give me a number--on the 
TSA no-fly list. Now, I don't consider that my staff or anybody 
on this committee should be using that information as the data 
points.
    But if that's the only place we're getting it, then, Mr. 
Chairman, I think you should subpoena the Department because my 
constituents expect me, particularly after the changes that 
we've made to the Visa Waiver Program, that if you're going to 
be reporting to me, what confidence do I now have, Secretary, 
that you're actually going to provide those reports and that 
our enhanced screenings so that we're evaluating now the 
threat, the risk of terrorism, that you can do that? With only 
three lists, my expectation is those numbers would be rote to 
you, whether or not they're specifically your responsibility 
out of Homeland Security because we have a Homeland Security 
Department for exactly those reasons, where we consolidated 
these efforts and we enhanced the opportunity for 
collaboration. And you've given me no confidence based on your 
testimony that you are leading that effort in any meaningful or 
remarkable way.
    Now, I hope I'm wrong. So I'm expecting you and this 
administration to give this committee and Congress the kind of 
assurances and security about our screening processes that we 
deserve and that this country deserves. But I'm really 
disappointed by this hearing. And I was hoping that I wouldn't 
be. And, in fact, to that point, just exactly what are you 
going to do and how are you going to proceed by giving us 
credible and confident information about assessing the risk, 
given that one of the issues I get concerned about is the fact 
that the countries that we're concerned about, the Iraqi and 
Syrian borders are so porous, how are we going to track folks 
and what kinds of things can you--without telling me that I 
should get a classified briefing, and I certainly don't want 
you to breach any of those classified or protected information. 
But give me a sense that you are actually doing your job and 
have some ideas about just exactly how you're going to increase 
that assessment based on that legislation.
    Ms. Burriesci. To address several of your points, the 
action that I'm going to take is going back to the 
authoritative source for the Terrorist Screening Center to make 
sure that you get the accurate--to make sure the committee 
members get the accurate numbers. I have a host of stats here, 
and I just didn't have those on my page.
    Ms. Lujan Grisham. That wasn't my question either. I want 
to talk about the porous borders. You tell me now about the 
next phase. So I'm disappointed in the current efforts clearly, 
clearly. I think I can say the vast majority of this committee 
is. Now tell me about the next phase. Where are you in being 
prepared to deal with very tough issues? I don't want to 
diminish those. But where are you in helping us identify better 
ways to deal with a pretty difficult problem, just given that 
one example? You've had many today. So the fact that people can 
travel between those countries which are high-risk areas and we 
don't know about it, what are you going to do about that from a 
data security management perspective? Recommend to me.
    Ms. Burriesci. One of the things that you saw in the White 
House's announcement last week is asking additional questions 
and enhancing ESTA further to be able to identify travel that 
doesn't have----
    Ms. Lujan Grisham. Give me a specific.
    Ms. Burriesci. --a nexus to the United States, which is 
where, I agree, if there's not a nexus to travel, continuous 
travel departing from the United States to go to any of those 
countries, it is much harder for us to find that information. 
If our foreign partners, whether in a VWP country or not, but 
if our foreign partners are not also sharing that information 
with us--and, thankfully, our VWP countries are, when they know 
that there's a foreign terrorist fighter, sharing that with 
us--then, yes, that is where that vulnerability lies.
    Ms. Lujan Grisham. And, Mr. Chairman, I'm out of time too. 
You've been incredibly--we want you to answer. And I agree that 
you are--you are in our communication now giving me a sense 
that you understand the problem. And I appreciate that. And I 
didn't mean to make that sound demeaning. But this is a 
significant problem.
    But what are you doing about it? Give me one, give me one 
specific that you can in the context of this hearing so I know 
that you're on the right path because that's what I need to 
explain to my constituents: this is what is happening.
    Mr. DeSantis. The gentlelady's time has expired. We have 
kind of gone round and round.
    Why don't you provide the answer in writing because I don't 
think we've gotten very good answers right now.
    Mr. DeSantis. And I don't know if it's a lack of 
preparation or what not. I think it's a good question. So the 
gentlelady's time has expired.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Mr. DeSantis. I'm going to recognize the gentleman from 
North Carolina for 5 minutes, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    I appreciate the opportunity.
    Mr. Jenkins, you haven't been able to participate a whole 
lot, but I still wanted to recognize you and thank you for 
being here. You do great work.
    Mr. Gude, you stated earlier that when we make decisions, 
you said: It is ignorant when we make decisions based on 
incomplete information.
    The statement, ``Americans are dying right now because of 
the existence of Guantanamo; closing it responsibly will save 
American lives,'' do you agree with that statement?
    Mr. Gude. I think it has lessened currently as a terrorist 
recruiting tool. But I certainly think that in the past, it has 
been a substantial recruiting tool for terrorists.
    Mr. Walker. I don't know if that was a yes or no because 
that was actually your statement. You also said this: President 
Barack Obama has done more in a few short hours to protect the 
security and uphold the values of the United States than his 
predecessor did throughout his long 8 years in office.
    Do you agree that statement is true? Or is that maybe an 
ignorant statement when you didn't have all the complete 
information?
    Mr. Gude. No, I remember saying that. And I clearly believe 
that. It was in response to the President's executive orders on 
his first full day in office to close down the black site 
prisons, to end torture, and establish a process to close 
Guantanamo.
    Mr. Walker. Would you agree, though, we have more 
information now after 7 years?
    Mr. Gude. Well, I think that a lot of time has passed.
    Mr. Walker. It has. The last statement that you made in the 
past, and I want to hit a couple you made today. You said 
America is back and ready once again to lead the community of 
nations toward a future that is both more secure and more free. 
It doesn't seem to be working out that way right now, does it?
    Mr. Gude. I think there are clearly threats that we as a 
country and we as an international community face. But, look, I 
think that we also forget the state of the world as it existed 
in early 2009 and late 2008. And I fully, fully believe that 
the United States is in a stronger position now than it was 
then.
    Mr. Walker. So basically would it be fair to say you 
believe right now we're safer as a country than where we were 7 
years ago?
    Mr. Gude. Yes.
    Mr. Walker. Okay. Thank you for being on record with that.
    Today, you said in regard to Islamic, you said it's 
impossible to state so boldly that ISIS is a religious sect of 
Islam. You said it's not. How can you be so bold, in fact, you 
said you used your word and said it was ignorant to think that 
way. And you even said we need to eradicate such ideology. I 
find that interesting that you would talk about not the 
eradication of ISIS but the eradication of such ideology. Do 
you think ISIS would agree with you that they're not a 
religious sect of radical Islam?
    Mr. Gude. I think ISIS is quite clearly trying to represent 
Islam. But I don't believe that it does. And I think the 
overwhelming majority of Muslims in the world would agree with 
me.
    Mr. Walker. How many millions would you suggest hold to 
this radical sect of Islam?
    Mr. Gude. I can't----
    Mr. Walker. Would you say that there's millions?
    Mr. Gude. No.
    Mr. Walker. You don't believe there's millions that hold to 
that sect. I would have to share some information accordingly. 
My concern is that here you are today as a witness talking 
about the security of our country, the no-fly list, some of the 
other things. And yet the statements that you're on record seem 
to be overwhelmingly partisan. And even today, you're on record 
saying that our country is safer now than where it was even 
though we're having explosions as far as this no-fly list, this 
thing, we've got Visa Waiver Programs we're trying to figure 
out. But you believe that right now we are safer as a country 
than where we were even when all this information wasn't even 
discovered?
    Mr. Gude. Yes, I do.
    Mr. Walker. Okay. I have no further questions. Mr. 
Chairman, I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from South Carolina 
for 5 minutes, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Ms. Burriesci, how many visa overstays are there in the 
United States?
    Ms. Burriesci. Sir, as I said earlier, I don't have that 
statistic with me.
    Mr. Gowdy. Let's use the President's statistics that there 
are 11 million, and 40 percent of them would be visa 
overstayers, as opposed to border crossers. Do you take 
exception with what the President said? Or can we just use that 
as kind of a baseline?
    Ms. Burriesci. I, in all honesty, I don't recall what the 
President said about it. But I'm not sure where those stats are 
coming from. I just don't have it with me.
    Mr. Gowdy. So you cannot tell me how many visa overstayers 
are in the United States?
    Ms. Burriesci. I don't have that information with me.
    Mr. Gowdy. Is there a list?
    Ms. Burriesci. There is an interim draft entry/exit report 
which has overstay data in it.
    Mr. Gowdy. No. No. Are----
    Ms. Burriesci. I----
    Mr. Gowdy. Is----there a list of names of visa overstayers?
    Ms. Burriesci. Oh, so anybody who has overstayed, 
regardless of if it's a visa or a Visa Waiver Program, those 
individuals have final removal orders and our Immigration and 
Customs Enforcement agency receives that list.
    Mr. Gowdy. So there's a list?
    Ms. Burriesci. Yeah.
    Mr. Gowdy. Is that a list shared with federally licensed 
firearms dealers?
    Ms. Burriesci. I am not sure.
    Mr. Gowdy. Well, it is actually currently against the law 
for anybody who is here illegally or unlawfully to possess or 
purchase a firearm. And I understood in Mr. Gude's opening, he 
wants to create a new list of prohibited persons, which just 
struck me that maybe we ought to find out how good a job we're 
doing with the current statutes that we have. Do you know how 
many prosecutions that there were for, say, the last 3 years 
for folks who tried to purchase a firearm that were not here 
legally?
    Ms. Burriesci. No, sir. But I can ask ICE that question.
    Mr. Gowdy. Well, it wouldn't be ICE. It would be the 
Department of Justice.
    Ms. Burriesci. Then I wouldn't have information because I'm 
with DHS.
    Mr. Gowdy. Well, and the good news for us is we do have 
that information. And it's an incredibly small number of 
prosecutions, like less than 100. So you can understand some of 
our skepticism when we hear folks calling for a new category of 
prohibited persons that cannot purchase or possess firearms 
when we've done such a dreadful job with the current 
categories. It is currently unlawful, illegal for people who 
are not legally in the country to purchase or possess firearms. 
And my question is, how many of those folks have been 
prosecuted?
    Ms. Burriesci. I would have to----
    Mr. Gowdy. And the number is really small. Let me ask you 
another question about the terrorism list. What process is 
afforded a U.S. citizen, not someone who has overstayed a visa, 
not someone who crossed the border without permission, but in 
the American system, what process is currently afforded an 
American citizen before they go on that list?
    Ms. Burriesci. I'm sorry, there's not a process afforded 
the citizen prior to getting on the list. There is a process 
should someone feel they are unduly placed on the list.
    Mr. Gowdy. Yes, there is. And when I say ``process,'' I'm 
actually using half of the term due process which is a phrase 
we find in the Constitution, that you cannot deprive people of 
certain things without due process. So I understand Mr. Gude's 
idea, which is wait until your right has been taken from you 
and then you can petition the government to get it back. I 
understand that that's his idea. My question is, can you name 
another constitutional right that we have that is chilled until 
you find out it's chilled, and then you have to petition the 
government to get it back? Is that true with the First 
Amendment?
    Ms. Burriesci. Sir, there are strict criteria----
    Mr. Gowdy. That's not my question, ma'am. That's not my 
question. My question is what process is afforded a United 
States citizen before that person's constitutional right is 
infringed? And he's fine with doing it with the Second 
Amendment. My question is, how about the First? How about we 
not let them set up a Web site or a Google account? How about 
we not let them join a church until they can petition 
government to get off the list? How about not get a lawyer? How 
about the Sixth Amendment? How about you can't get a lawyer 
until you petition the government to get off the list? Or, my 
favorite, how about the Eighth Amendment? We're going to 
subject you to cruel and unusual punishment until you petition 
the government to get off the list. Is there another 
constitutional right that we treat the same way for American 
citizens that we do the Second Amendment? Can you think of one? 
Can you think of one?
    Ms. Burriesci. I don't have an answer for you, sir.
    Mr. Gowdy. I'm out of time. But I've got a couple other 
questions. And I'm sure the chairman will indulge me. Do you 
know whether the female terrorist in California was subjected 
to an in-person interview before her K visa was issued?
    Ms. Burriesci. As part of the visa process, yes, that 
individual was interviewed.
    Mr. Gowdy. Do you know who interviewed the person?
    Ms. Burriesci. I do not have that information. That would 
be a question to ask the State Department.
    Mr. Gowdy. Do you know how long the interview took place, 
how long it lasted?
    Ms. Burriesci. That would also be a question for the State 
Department. They conducted the interview.
    Mr. Gowdy. Do you know what investigation, if any, was done 
into her in terms of education, employment, social media?
    Ms. Burriesci. Those are all questions that should be 
referred to the State Department.
    Mr. Gowdy. Who has her immigration file?
    Ms. Burriesci. USCIS would have the immigration file.
    Mr. Gowdy. I thought USCIS was a subset of DHS?
    Ms. Burriesci. Yes.
    Mr. Gowdy. And you're with DHS, so why wouldn't I ask you?
    Ms. Burriesci. So the process would start with USCIS for a 
K-1 visa.
    Mr. Gowdy. I know. And then it goes to the State 
Department.
    Ms. Burriesci. And then it goes to the State Department, 
which is where all the checks to see if that individual is 
eligible for the K-Y--K-1 visa--I'm sorry, I even lost my own 
train of thought.
    Mr. Gowdy. I know exactly where you're going.
    Ms. Burriesci. If someone is eligible for the K----
    Mr. Gowdy. Mr. Rodriguez was with us yesterday.
    Ms. Burriesci. Yes. Then the individual would travel to the 
United States. Of course, there's vetting done on the 
individual as they travel as any individual is. And then, 
within 90 days, they can apply for legal permanent residency. 
And then that is also when USCIS would get involved and do 
biographic and----
    Mr. Gowdy. I understand the process. And I'm out of time.
    I'm just going to make this point before I yield back to 
the chairman: There's an application process--we're not even 
talking about the Visa Waiver Program; we're talking about the 
process where there actually is a visa issued--there's an 
investigation; there's an interview; there's another interview; 
and yet we still got it wrong. And I would think the chairmen, 
one of whom is sitting beside me, and Chairman DeSantis and 
Ranking Member Lynch, I would think that they would be very 
interested in her immigration file to find out what questions, 
perhaps, weren't asked that should have been, so we can learn 
lessons after the 14 are dead, and hopefully, we can learn 
before there are 14 more dead. So I would encourage you to ask 
your boss to make that file available to both the ranking 
member of the full committee, the chairman of the full 
committee, the ranking member of the subcommittee, and the 
chairman of the subcommittee.
    And, with that, I yield back to the chairman.
    Mr. DeSantis. The gentleman yields back.
    So can you provide that by close of business Friday?
    Ms. Burriesci. I'll take that back. Thank you.
    Mr. DeSantis. Can you do it, though?
    Ms. Burriesci. I would love to say yes, but I'm not in 
charge of that. So I want to make sure, if not shorter, yes.
    Mr. DeSantis. Before I recognize the ranking member of the 
full committee, you can't give us the number of people who are 
on expired visas? You have staff. Can they just call DHS so we 
get it before the hearing is over? Do you want to take a 5-
minute recess to make that phone call? This should not be very 
difficult.
    Ms. Burriesci. To find out----
    Mr. DeSantis. We have had a number of questions about how 
many people are here on visa--have overstayed their visas. And 
we've not been able to get even a ballpark estimate about that. 
I would imagine somebody in this big, sprawling Department has 
got to have some type of information in that regard. So my 
question to you is, is there a way that you can get that to us 
today? Can you make a phone call to do it? Can one of your 
staff make a phone call?
    Ms. Burriesci. I will make a phone call. I'm happy to do 
it.
    Mr. DeSantis. Do you want to recess for 5 minutes and 
you'll do it?
    Ms. Burriesci. I'm happy to make a phone call.
    Mr. DeSantis. Okay. Well, the hearing stands in--so we're 
not going to get----
    Mr. Chaffetz. Will the gentleman yield?
    Mr. DeSantis. We'll recognize----
    Mr. Cummings. No, I don't mind her making a phone call. I 
appreciate the courtesy, Mr. Chairman. But if you want to make 
a phone call to help us get issues resolved, I don't mind 
waiting. I have no problem.
    But thank you, Mr. Chairman. I appreciate it, both 
chairmen.
    Mr. DeSantis. We will stand in recess for 5 minutes. And 
we'll resume at 12:31.
    [Recess.]
    Mr. DeSantis. We'll now come to order.
    The chair will recognize the ranking member, Mr. Cummings, 
for 5 minutes.
    Mr. Cummings. Mr. Chairman, before we do that, I want to 
see if she got the information. I don't want that taken off my 
time.
    Did you get the information?
    Ms. Burriesci. I did get some information on the VWP 
overstay numbers. It's at--I couldn't get everything.
    Mr. DeSantis. What's the number?
    Ms. Burriesci. So the VWP overstay rate is--I'm sorry--for 
citizens of VWP countries, the overstay rate is around 2 
percent.
    Mr. DeSantis. So that means people that have stayed past 90 
days when they came in on the Visa Waiver Program? Or is that 
people who----
    Ms. Burriesci. Citizens--that's a great question. I believe 
that is true, yes, for business and tourism reasons, so 91-plus 
days.
    Mr. DeSantis. Okay. But we will need that in writing. And 
we want to see where you're getting those numbers, because I 
know there will be people, probably up here, who will disagree 
with how those numbers were arrived at.
    And, with that, we'll recognize Mr. Cummings for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Burriesci, as you know, 2 days ago, the House passed 
legislation to strengthen the security of the Visa Waiver 
Program, H.R. 158, the Visa Waiver Program Improvement and 
Terrorist Travel Prevention Act of 2015. Based on the recent 
terrorist attacks in Paris and San Bernardino, Congress needs 
to act to close the security gaps in the VWP program, and it's 
my sincere hope that the Senate will take up the House bill and 
send it to the President's desk as soon as possible.
    Do you believe that H.R. 158 will help DHS' efforts to 
implement the Visa Waiver Program?
    Ms. Burriesci. I assume that's directed at me?
    Mr. Cummings. Yes, ma'am.
    Ms. Burriesci. Yes, absolutely, sir. It always helps to 
codify some of the enhancements in statute because that helps 
other countries be able to point to our statute and help when 
they need to make legal changes in their own systems.
    And the law has a lot of practical security value--I'm 
sorry, not the law--H.R. 158 has a lot of practical security 
value measures in it. So I do think it will assist security, 
yes, sir.
    Mr. Cummings. And the administration called on Congress to 
enact some of the reforms that are included in H.R. 158. For 
example, the bill would require that all travelers in the Visa 
Waiver Program be screened against INTERPOL databases to 
identify high-risk travelers.
    Will putting this requirement in the statute help DHS with 
encouraging compliance with countries participating in the Visa 
Waiver Program?
    Ms. Burriesci. Yes, the requirement that VWP countries use 
that database to screen, themselves, for their inbound 
travelers, absolutely. We do it already here in the United 
States.
    Mr. Cummings. Now, the administration also requested that 
Congress act to accelerate the requirement for 100 percent of 
VWP travelers to use e-Passports. Why is it important for the 
VWP travelers to use an e-Passport?
    Ms. Burriesci. So an e-Passport includes a chip on it, it 
includes the biographic information on a passport, as well as 
it holds a digital photo. It's harder to--what's the word for 
fraudulently mess it up? Sorry for blanking out there for a 
second. And, therefore, they are more secure, they have more 
secure features in them.
    So we are encouraged by the fact that all VWP countries 
currently issue e-Passports. And CBP has the capability to read 
e-Passports at our POEs, at our ports of entry.
    Mr. Cummings. You know, Ms. Kephart, I missed your 
testimony, but I want to make sure we're clear on some things 
that go to the truth, the whole truth, and nothing but the 
truth.
    Ms. Kephart. I understand.
    Mr. Cummings. And you're sworn, you know. I want to remind 
you of that.
    And the American people get kind of frustrated when they 
see witnesses come before them who might have an interest in 
themselves or their companies making a lot of money off of 
their testimony in some way or another.
    I'm not saying that's what you're doing. I just want to be 
clear. I think it's very important to not only the integrity of 
this committee but the integrity of this Congress and the 
people who are watching this that we know exactly what your 
situation is.
    Now, I want to reiterate, you are the director of homeland 
security solutions for--what's the name of the company?
    Ms. Kephart. It's MorphoTrak, sir.
    Mr. Cummings. And your job is to sell biometric technology 
and systems to the government. Is that correct?
    Ms. Kephart. As of 3 months ago.
    Mr. Cummings. Yeah, but you're employed.
    Ms. Kephart. I spent years doing----
    Mr. Cummings. You're getting a paycheck.
    Ms. Kephart. Yes, sir.
    Mr. Cummings. Right. Okay.
    Ms. Kephart. Absolutely, I do.
    Mr. Cummings. That's the big deal. You're getting a 
paycheck.
    Ms. Kephart. Right. And I am happy--I filled out the form 
in my personal capacity. I clearly made a mistake, as Mr. 
Cartwright pointed out earlier. And I am happy to go back and 
have our legal counsel--engage them and do it correctly.
    Mr. Cummings. Well, I just want to make it clear so that 
the people watching this----
    Ms. Kephart. I didn't do it on purpose, sir.
    Mr. Cummings. Ma'am, I'm not saying you that did it on 
purpose.
    Ms. Kephart. Yeah.
    Mr. Cummings. But I'm telling you that when you come before 
us----
    Ms. Kephart. I understand.
    Mr. Cummings. --and you sign these documents, you should 
pay close attention to what you're doing. Because I can tell 
you, there are people on this committee, under certain 
circumstances, that would refer you for some criminal action. 
I'm just telling you. I've seen it many times.
    And so I don't know whether you--I mean, it doesn't take a 
rocket scientist to read this--this is a pretty simple form.
    And so, in fact, your company has millions of dollars in 
Federal contracts. Is that incorrect? I see you're frowning up, 
but am I wrong?
    Ms. Kephart. We have Federal contracts, yes, sir.
    Mr. Cummings. Does it amount to millions of dollars?
    Ms. Kephart. I actually don't know the answer. A few 
million dollars, yes.
    Most of our work actually is with State and local. We 
provide the ABIS systems to many of the States that are 
represented here today, are the criminal biometric systems. 
Federal, we don't have much of a footprint. We do at DHS 
recently. We did acquire a USCIS Live Scan for our biometrics, 
yes.
    Mr. Cummings. Okay. So you're telling me you got a couple 
billion----
    Ms. Kephart. But not with Customs and Border Protection, 
who I----
    Mr. Cummings. Ms. Kephart, I only have a few minutes. I 
only have a minute.
    Mr. DeSantis. Actually, your time has expired. So are you 
going to----
    Mr. Cummings. Well, I just want to have as much time as Mr. 
Gowdy had. He had 7 minutes. May I have 1 more minute?
    Mr. DeSantis. Well, we have a classified briefing in a few 
minutes. I have at least one more witness--three more witnesses 
on my side. So you made your point. I get it. We bring 
contractors here all the time that do that.
    So the gentleman's time has expired.
    I recognize the chairman of the full committee for 5 
minutes.
    Chairman Chaffetz. It is my commitment to the ranking 
member that we will work together to rectify this. I don't care 
what side of the aisle, where you are in the political 
spectrum, you do not come before the United States Congress and 
fill out a very simple form and get it wrong. Okay? Ever.
    Ms. Kephart. I apologize.
    Chairman Chaffetz. And that may not cut it. I appreciate 
the apologies, but that may not cut it. And I'll work with the 
ranking member on that to follow up. There's no excuse for 
that.
    Ms. Burriesci, who do you report to?
    Ms. Burriesci. I report to Assistant Secretary Seth 
Stodder.
    Chairman Chaffetz. And this report that we've been talking 
about, how long has it been in process?
    Ms. Burriesci. It has been in process for, I believe, over 
a year. I don't have the exact timeframe, but it's over a year.
    Chairman Chaffetz. And are you participant in finalizing 
that report?
    Ms. Burriesci. It has been months since I have seen that 
report.
    Chairman Chaffetz. Who is in charge of that report?
    Ms. Burriesci. It is a CBP report.
    Chairman Chaffetz. Give me a name. When I send the subpoena 
that was suggested by the Democrats, who do I send it to? I'm 
going to send it to the Secretary, but who is responsible for 
this report?
    Ms. Burriesci. Sir, I believe, if you want--that question, 
I believe the Secretary of Homeland Security.
    Chairman Chaffetz. Okay.
    Let's move on. The entry/exit program, that's your 
responsibility, right, in part? You're in charge of screening. 
How is that coming along, the entry/exit program?
    Ms. Burriesci. So, actually, we have a lot of good news on 
the biometric entry/exit front. And we had the pleasure of 
briefing your staff last week on those----
    Chairman Chaffetz. I don't want to hear about staff 
briefings last week. I'm asking you--it is currently law that 
we're supposed to have an entry/exit program, correct?
    Ms. Burriesci. Sir, we have exit operational at 10 
airports--at 10 locations, sorry, today. We are----
    Chairman Chaffetz. And there are how many airports overall?
    Ms. Burriesci. There's hundreds of airports, sir.
    Chairman Chaffetz. And so we have it at 10 of them. Okay.
    Ms. Burriesci. I agree, it's not--I acknowledge it is not 
nationwide, a biometric exit system, today. I acknowledge that.
    Chairman Chaffetz. What percentage of the people leaving 
the country are you able to capture?
    Ms. Burriesci. I may have that with me, but I have to look.
    I do not have that. I'm sorry, I do not have that statistic 
with me.
    Chairman Chaffetz. When will you give me that statistic?
    Ms. Burriesci. I will try to get that to you within 24 
hours if I can reach----
    Chairman Chaffetz. Thank you.
    Ms. Burriesci. --the CBP. Absolutely.
    Chairman Chaffetz. What percentage of the people coming 
into the country are fingerprinted?
    Ms. Burriesci. I believe there are very few exceptions to 
who would not----
    Chairman Chaffetz. I think you said earlier all of them.
    Ms. Burriesci. Everybody gets fingerprinted upon entry. I 
think there are very few exceptions.
    Chairman Chaffetz. Can you think of any exceptions?
    Ms. Burriesci. For some diplomatic visas.
    Chairman Chaffetz. What percentage----
    Ms. Burriesci. And I believe there's one more, but I just 
can't----
    Chairman Chaffetz. What percentage of the land entrants, 
people coming across on the land, what percentage of those 
fingerprints are captured?
    Ms. Burriesci. I can come back with that.
    Chairman Chaffetz. You were so certain before. You said it 
was all of them. So isn't the answer 100 percent or no?
    Ms. Burriesci. There are a few exceptions. I know there are 
diplomatic visas, and I believe there may be some exceptions 
for certain Canadians. And that's why--I didn't intentionally--
--
    Chairman Chaffetz. Yeah, but the problem is you are--how 
long have you been in this role?
    Ms. Burriesci. In my current role? Since 2012.
    Chairman Chaffetz. I think we expect you to know this.
    What about the seaports? If you come in on a cruise line, 
what percentage of those people are fingerprinted coming back 
in?
    Ms. Burriesci. Sir, I know the policies and the processes. 
I'm getting asked a lot of very specific stats. And it's not 
that I don't want to share my stats. As soon as I can get back 
to the Department and the systems, run them and we get them, 
I'm happy to share any stats. I'm not trying to at all withhold 
information.
    Chairman Chaffetz. Do you know what percentage of the 
passport chips work?
    Ms. Burriesci. I didn't realize that they didn't work.
    Chairman Chaffetz. Okay. So----
    Ms. Burriesci. I'm sorry, I don't understand where you're--
--
    Chairman Chaffetz. It's something like only 60 percent of 
the time those passport chips actually do work. You're supposed 
to be the expert on this. I mean, this should be just right off 
the top of your head. You're coming before Congress, and I 
recognize that you don't normally come and testify here, but 
they've spent so much time briefing and making sure you get it 
right. You should know that the passport chips don't work. 
That's a big problem.
    Ms. Burriesci. Sir, I spent ample time briefing and 
learning and making sure off the top of my head I knew the Visa 
Waiver Program and talked about all the security elements. I'm 
getting a lot of statistical questions that I just don't have 
with me. But, otherwise, I would absolutely share them with 
you. And, as I've said, I'm happy to get them to you. I just 
don't have them with me today.
    Chairman Chaffetz. The questions that I just asked you, 
what's a reasonable time for you to get that information?
    Ms. Burriesci. I will get them--as soon as I have them, I 
will share them.
    Chairman Chaffetz. Okay. I yield back.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes Mr. Hice for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Burriesci, I will just continue. What would it take for 
a country to be removed from the Visa Waiver Program?
    Ms. Burriesci. Well, we have a host of things that we can 
do on a Visa Waiver Program that is not meeting standards, so 
termination is kind of where we would see the last resort. That 
doesn't actually help us----
    Mr. Hice. Well, that's my question. What would be the last 
resort? What would it take----
    Ms. Burriesci. Termination would be the last resort. I 
mean, that is where----
    Mr. Hice. What would it take to be terminated?
    Ms. Burriesci. --there are strong security concerns or 
contradictory interests to the United States. That would lead 
to termination.
    Mr. Hice. All right. That's pretty vague. ``Strong security 
concerns,'' what does that mean?
    Ms. Burriesci. So when we're reviewing a VWP country, when 
we go and do our reviews, and even through the continuous 
monitoring that occurs outside of reviews, we're looking at 
their counterterrorism standards, border security, law 
enforcement, immigration, and document issuance standards.
    So if any of those became a concern to the United States, 
certainly a security concern, that would be one of the things 
that are considered, among other measures.
    Mr. Hice. If I'm hearing you correctly, then, if any one of 
those issues that you just mentioned became a question for the 
United States, that country would be terminated?
    Ms. Burriesci. Well, there's a big scale of whether 
something becomes a concern and whether it, you know, is of a 
level----
    Mr. Hice. Well, you just said, if any of these were a 
concern, they would be removed. Is this not what you're saying 
now?
    Ms. Burriesci. Well, if something becomes a concern and--it 
is in the interest of the United States to work with the 
countries and raise the security standards. So we have other 
measures besides termination. There's suspension, and there's 
provisional status. And we also have the ability to lower ESTA 
validity period, which is----
    Mr. Hice. Okay. Well, let's move on. I have several 
questions.
    Has removal ever taken place? Has termination taken place?
    Ms. Burriesci. Yes, sir.
    Mr. Hice. How often?
    Ms. Burriesci. We have done it twice since 2000.
    Mr. Hice. Okay. So it's happened twice.
    Is there a penalty for a country that fails to share 
information regarding individuals who may pose a threat to the 
United States?
    Ms. Burriesci. We can take a host of actions on a country 
that isn't sharing, but all the countries----
    Mr. Hice. So there is a penalty.
    Ms. Burriesci. Well, what I'm saying is there are lots of 
things we can do, and I've named some of them. We can change an 
ESTA period, we can put a country on provisional status, we can 
suspend a country, or we can terminate a country.
    Mr. Hice. Is that all subjective, or is there a process? 
When do you know when that occurs?
    Ms. Burriesci. DHS would never do something without the 
consultation of State Department, as we do with all things for 
the Visa Waiver Program. And if something were certainly to 
rise to that level, we'd bring in our interagency partners, as 
well, even outside of just the State Department.
    Mr. Hice. Okay.
    Let's see. I'm assuming that--well, let me ask you this. 
What about these individuals who are being radicalized who have 
not been to countries like Iraq or Syria? Is anything being 
done to monitor that group?
    Ms. Burriesci. Countries that have been?
    Mr. Hice. Individuals who have been radicalized but they 
have not gone to countries like Iraq or Syria, are these 
individuals being monitored in any way?
    Ms. Burriesci. I mean, certainly, if we are aware, the FBI 
might have an investigation open on them. But, I mean, the 
greatest concern and the thing, you know, that certainly keeps 
me up at night is the individuals that we're not aware and that 
is their mindset and----
    Mr. Hice. So you don't know if they're being monitored or 
not.
    Ms. Burriesci. That I----
    Mr. Hice. You don't know.
    Ms. Burriesci. I don't know the answer to that.
    Mr. Hice. Okay.
    I'm assuming you don't know how many passports are reported 
stolen each year. Is that correct?
    Ms. Burriesci. I don't know how many are reported stolen 
each year, but I know that----
    Mr. Hice. Do you know what the procedure would be when a 
passport is reported stolen? How do we make sure that that 
stolen passport is not used fraudulently by another individual?
    Ms. Burriesci. So for all manifest data that we receive, we 
are--I'm sorry--for all travelers coming into the United 
States, we are running that manifest data against the stolen 
and lost travel document. Absolutely. And that includes 
documentation--sorry--that includes records that the United 
States puts in, VWP countries put in, and other countries.
    Mr. Hice. Do you believe the other--well, it looks like my 
time has expired.
    Mr. DeSantis. The gentleman's time has expired.
    We do have this briefing, but I want to give Mr. Carter the 
last round. So we're going to recognize Mr. Carter for 5 
minutes, and then we're going to recess because we do have to 
go over to the California hearing.
    Mr. Carter. Thank you, Mr. Chairman. I appreciate this.
    And thank all of you for being here today.
    Ms. Burriesci, let me ask you something. I'm still 
concerned about this overstay. And one of your other panelists 
has noted in her written remarks that ``the Visa Waiver Program 
tourist overstay issue remains. The GAO tells us that 43 
percent of VWP tourists make up the overstay population in the 
U.S.''
    So 43 percent of all the overstay population in the U.S. 
comes from the Visa Waiver Program is what this is asserting. 
Would you agree with that, yes or no?
    Ms. Burriesci. No. As I stated----
    Mr. Carter. Okay. Okay.
    Ms. Burriesci. --earlier, it is around 2 percent.
    Mr. Carter. No, but she's saying of all the overstay. So 
that's inclusive of all the other programs, as well.
    But you brought us a number of 2 percent. Now, can you tell 
me what that number is? I mean, 2 percent of what?
    Ms. Burriesci. I wasn't able to get all that while I was on 
the phone.
    Mr. Carter. Okay. So you don't know if it's 2 percent of a 
million, 2 percent of 100,000?
    Ms. Burriesci. I don't.
    Mr. Carter. Okay. But can you get that for us?
    Ms. Burriesci. I will take that question back.
    Mr. Lynch. Will the gentleman yield?
    Mr. Carter. I yield.
    Mr. Lynch. The number is 20 million people per year. Two 
percent comes out to 400,000 per year overstaying their visas 
under the Visa Waiver Program.
    Mr. Carter. Okay. And I'll reclaim my time.
    Tell me, do you know what the average overstay is, what the 
overage length of time the overstay is?
    Ms. Burriesci. That's going to vary. Because even if it's 1 
day, it's an overstay.
    Mr. Carter. But an average----
    Ms. Burriesci. I don't have that information.
    Mr. Carter. Okay. Can you get me that information? In other 
words, of all the overstay, that 2 percent of the--what was it? 
400,000--of the 400,000, the average overstay is 3 months, is 6 
months, is 9 months, whatever it is.
    And then also I'd like to know the longest. I mean, have 
you got somebody who's been on that list, that overstay list, 
for 3 years or 5 years?
    But, most importantly--and I hope you can answer this here 
today; you should be able to--what are we doing about it? What 
are we doing about those people who are on that overstay list?
    Ms. Burriesci. So when you become an overstay, you have a 
final removal order. And ICE, which is an agency, Immigration 
and Customs Enforcement agency within--Citizenship, not 
Customs--within DHS is responsible for removing those 
individuals.
    Mr. Carter. So you turn it over to ICE, and ICE goes and 
looks for them?
    Ms. Burriesci. Yes. ICE is the responsible agency to remove 
overstays.
    Mr. Carter. Okay. Can you tell me what ICE is doing about 
it? Are they out looking for them right now as we speak?
    Ms. Burriesci. Every single day.
    Mr. Carter. Every single day they're out looking for this 
person?
    Ms. Burriesci. Every single day. Absolutely. And they are 
prioritizing those that are national security and public safety 
concerns first, because that's in the interest of the United 
States.
    Mr. Carter. Okay.
    And let me ask you this. What can we do to help you? What 
can we, as Congress, do to help you with this problem? Tell me. 
Tell me what we can do.
    Ms. Burriesci. I am sure ICE has a long list of ways that 
you can help, and I'm sure they would be very encouraged to be 
asked that question.
    Mr. Carter. You know, I'm bothered that--``I just pass it 
off to ICE. It ain't my problem anymore. It's their problem.''
    Ms. Burriesci. No, I'm not trying to pass it off at all, 
sir. I just don't want to--I want to give you a complete and 
comprehensive answer. It is a great question. We thank you for 
asking that question.
    Mr. Carter. Okay.
    All right. Let's shift gears here. Let's talk about ESTA, 
the Electronic System for Travel Authorization. It's an 
automated, web-based system used to determine an alien's 
eligibility to travel without a visa in the United States for 
tourism and business.
    Is this the only place, in the United States, or do other 
countries have this type of program? Are we the only ones with 
this type of program?
    Ms. Burriesci. It's a reciprocal program. So United States 
citizens don't need a visa when we're traveling to VWP 
countries, as well.
    Mr. Carter. So it is a reciprocal program with the other 38 
countries.
    Ms. Burriesci. Yes.
    Mr. Carter. So they have an ESTA, as well. And you can 
fill----
    Ms. Burriesci. I was going to say they might call it 
something else, but yes.
    Mr. Carter. But it's basically the same thing. And you can 
fill that application out online, correct?
    Ms. Burriesci. For some countries, yes.
    Mr. Carter. So, once you're issued that ESTA, how long is 
it good for?
    Ms. Burriesci. It's typically good for 2 years.
    Mr. Carter. Two years. Do you think that needs to be 
tightened up?
    Ms. Burriesci. So we have the ability to change the ESTA 
validity period today, but the important thing to remember is 
an ESTA is actually recurrently vetted. So, for the validity 
period of 2 years, if anything changes, if someone ends up on 
the terrorist watch list, for example, we know real time, and 
we will revoke or deny that ESTA application.
    Mr. Carter. I understand that, but 2 years is a long period 
of time.
    Ms. Burriesci. Well, a business or tourist visa is 10 
years. And every 2 years, we're going to----
    Mr. Carter. But two wrongs don't make a right. I mean, come 
on now. Don't give me an answer saying, ``Well, this is even 
worse.''
    Ms. Burriesci. Well, I think the fact that we're 
recurrently vetting is going to determine whether somebody--if 
somebody becomes a national security concern, we get that 
information in real time, and we're able to take an action on 
it.
    Mr. Carter. Okay. Mr. Chairman, I yield back.
    Mr. DeSantis. The gentleman's time has expired.
    The chair is going to recognize Mr. Lynch for 1 minute.
    Mr. Lynch. All right. Thank you.
    Ms. Burriesci, thank you very much. I know it's been a 
difficult hearing for you.
    Those four men to your right, the well-dressed gentlemen in 
the front row, do they work for you?
    Ms. Burriesci. Some of them.
    Mr. Lynch. Okay.
    Ms. Burriesci. Not all of them.
    Mr. Lynch. Well, do you have a numbers guy? Because you 
really needed your numbers guy today, or your numbers gal.
    Ms. Burriesci. Well, I have the ESTA numbers, I have the 
ESTA denial numbers, I have the----
    Mr. Lynch. Well, wait a minute. You had a whole bunch of 
numbers you didn't have, and we had to recess the hearing. So I 
have a feeling you're going to be back before this committee 
again. This issue is not going away. And I would just 
recommend, next time I want to see you walk in arm-in-arm with 
your numbers person.
    Ms. Burriesci. I will have any list of stats for certain.
    Mr. Lynch. Okay.
    The other thing is this. I want to follow up on the 
gentleman's previous question. Twenty million people a year, 2 
percent overstay rate, 400,000 people overstaying their visa. 
So, in addition to what the gentleman asked for, I would also 
like the country of origin of where those people are coming 
from and overstaying.
    And is there a list, is there a list--you say they 
prioritize, ICE prioritizes. Is there a list that we're 
running? Because, you know, obviously, the problem should be 
self-evident.
    Thank you. I yield back.
    Mr. DeSantis. And what we're going to do is we're going to 
reduce all the questions that we've asked, that we want the 
information, we're going to reduce that to writing. We're going 
to send that to you soon. And then you guys can respond to that 
in due time but, you know, not too long. It should be readily 
apparent.
    And then I am going to make the additional request that the 
Department produce the file for the committee on Tashfeen 
Malik. We would like to get that next week. We very well may be 
back here next week, and that is very, very important for us to 
see so that we can evaluate as we move into other phases of 
oversight. When we're looking at our visa programs, we want to 
make sure--I mean, clearly, we don't want a visa program that 
allows somebody like her to come into this country.
    So Chairman Chaffetz is recognized.
    Chairman Chaffetz. Ms. Burriesci, these visa overstays, you 
should have a list of every one of them, right, by individual 
name?
    Sorry, I need you to say it for the record. Do you have a 
list of each of their names?
    Ms. Burriesci. I personally don't, but the Department would 
have a list of individuals with final removal orders who have 
overstayed.
    Chairman Chaffetz. So this is, in part, why we need a 
entry/exit program, because you don't truly know if they've 
left, correct? You only know if they've left if they've 
traveled by airplane, correct?
    Ms. Burriesci. We have a biographic exit system, but, 
certainly, including biometrics on exit is an additional 
certainty, yes.
    Chairman Chaffetz. Where do you do that? What do you mean, 
``biographical''? What does that mean?
    If you fly into JFK, you travel around, go to New York, and 
then you decide to go up to Toronto, are you telling me that 
you're capturing the names of who's leaving? Where do you 
actually capture the names of people that leave the country?
    Ms. Burriesci. If it would help, we can provide something 
written that actually lays out the process of what occurs----
    Chairman Chaffetz. I think I understand the process.
    Ms. Burriesci. --if that works.
    Chairman Chaffetz. It does. I would appreciate that. We'll 
add that to the list.
    Is it fair to say that, most ports, you don't capture who 
exits the country?
    Ms. Burriesci. We get the manifest data, and we'll use 
that, and we use our arrival/departure information system. 
But----
    Chairman Chaffetz. Do most people come into this country on 
airplane, or do they come in by vehicle and car?
    Ms. Burriesci. I believe----
    Chairman Chaffetz. Or vehicle, cars, and walking?
    Ms. Burriesci. I would anticipate it would be air, but I 
don't know.
    Chairman Chaffetz. Again, you're in charge of this stuff.
    And so when will you get us that information?
    Ms. Burriesci. I'm not in charge of the operations. But I 
am in charge of working on the----
    Chairman Chaffetz. You're in charge of screening. Your 
title says ``screening'' in it.
    So if they come in on a Visa Waiver Program by air and 
depart not by air, what percentage of those people do you 
capture?
    Ms. Burriesci. So that is what I would say is one of the 
gaps that we have acknowledged, if someone comes in by air and 
leaves by land, yes.
    Chairman Chaffetz. And there are literally hundreds of 
thousands of people who may have come here legally but now 
they're here illegally, correct?
    Ms. Burriesci. I don't have that number with me, but----
    Chairman Chaffetz. Is it hundreds of thousands of people?
    Ms. Burriesci. I don't have that information with me.
    Chairman Chaffetz. The answer is yes, correct? I mean, Mr. 
Lynch laid it out there for you.
    Ms. Burriesci. I recognize that I'm under oath, and I just 
don't want to provide misinformation to you. It is not that I 
don't want to provide information to you.
    Chairman Chaffetz. So it's somewhere between hundreds of 
thousands and potentially the low millions of people that came 
here legally through the Visa Waiver Program, the topic that 
we're discussing, and just decided they're not going to leave.
    And you should have a list of those people, right? Do you 
share any of that--who else gets that list? Who do you share 
that list with?
    Ms. Burriesci. That list is shared with--it's shared with 
interagency partners, and it's shared across--yeah.
    Chairman Chaffetz. Who do you share that list with?
    Ms. Burriesci. I don't have the list with me.
    Chairman Chaffetz. You're the Deputy Assistant Secretary 
for Screening Coordination. And in your job description, of the 
one paragraph on the Web site, you're supposed to be the one 
that's coordinating with the other departments and agencies.
    When you have somebody who's a visa overstay, do you 
consider that a threat to the United States of America?
    Ms. Burriesci. Sir, sometimes there are people who overstay 
that are grandmas that come over to take care of their 
grandchildren. I wouldn't call them a threat. I'm not saying 
that they shouldn't abide by the terms of their admission 
period, but calling them a threat is a totally different, you 
know, circumstance.
    Chairman Chaffetz. So you just assume that everybody that 
comes here on this Visa Waiver Program is not a threat?
    Ms. Burriesci. I didn't say that either. Anybody who comes 
and overstays their period of admission here receives that 
final removal order, and we go after them and prioritize them 
based on national security and public safety first----
    Chairman Chaffetz. When do they get----
    Ms. Burriesci. --using the resources that we have.
    Chairman Chaffetz. When do they get that removal order?
    Ms. Burriesci. I mean, you know, if you're here for VWP and 
it's 90 days, on the 91st day you're considered to be an 
overstay.
    Chairman Chaffetz. You said they give them the removal 
order. Who gives them the removal order?
    Ms. Burriesci. The removal order would come from ICE.
    Chairman Chaffetz. And how many----
    Ms. Burriesci. I can check on the timeframe.
    Chairman Chaffetz. Will you also give us the list of how 
many of those have been sent out?
    Is it ICE's responsibility to then remove them?
    Ms. Burriesci. Yes, sir.
    Chairman Chaffetz. And we'll be inquiring as to how often 
that happens.
    I want to go back to the list. I've probably gone over my 
time, but when you have somebody who has then overstayed their 
visit, come here on the Visa Waiver Program, which law 
enforcement entities do you share that with? Which databases 
does that go into? Can you name one?
    Ms. Burriesci. So we will have within DHS who has the final 
removal orders. I believe it's shared with State and local, but 
I don't want to say that with certainty right now. So, you 
know, I will do my very best to get you the information that 
the Department has on those questions.
    Chairman Chaffetz. Who is the specific person that would 
know? You report to? Sorry, you told me earlier. The person you 
report to is?
    Ms. Burriesci. Assistant Secretary Seth Stodder. I'm in the 
Office of Policy.
    Chairman Chaffetz. And that person reports to?
    Ms. Burriesci. Assistant Secretary Alan Bersin.
    Chairman Chaffetz. And that person reports to?
    Ms. Burriesci. The Secretary of Homeland Security.
    Chairman Chaffetz. Jeh Johnson.
    Ms. Burriesci. Yes, sir.
    Chairman Chaffetz. The request we sent was for Jeh Johnson, 
and Jeh Johnson sent you as the expert on these topics. So, you 
know, this is why I think we need help on both sides of the 
aisle here. But Mr. Johnson, the Secretary himself, has got to 
come answer these questions.
    You strike me as a very nice person, but these are basic 
questions about the functionality here. And when we're having a 
congressional hearing, it is a waste of this committee's time 
to send somebody who doesn't know the answers to very basic 
questions.
    And that's why we will continue to pursue very vigorous 
oversight and look forward to robust discussions. You're 
accelerating the need for us to have multiple hearings on this.
    I yield back.
    Mr. DeSantis. The chairman yields back.
    And we are also anticipating the responses to all the 
questions that have been asked and, obviously, anticipating 
being able to review the file for Tashfeen Malik.
    Mr. DeSantis. So I want to thank the witnesses.
    The committee stands adjourned.
    [Whereupon, at 1:17 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               


                                 <all>
</pre></body></html>
